<html>
<title> - NATIVE AMERICAN LANGUAGES ACT</title>
<body><pre>[Senate Hearing 108-107]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-107

                     NATIVE AMERICAN LANGUAGES ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 575

 TO AMEND THE NATIVE AMERICAN LANGUAGES ACT TO PROVIDE FOR THE SUPPORT 
              OF NATIVE AMERICAN LANGUAGE SURVIVAL SCHOOLS

                               __________

                              MAY 15, 2003
                             WASHINGTON, DC



87-260              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 575, text of..................................................     2
Statements:
    Brown, William Y., director, Bishop Museum, Honolulu, HI.....    55
    Cheek, John, director, National Indian Education Association, 
      Alexandria, VA.............................................    58
    Chock, Jennifer, director, Program Planning and Development..    55
    Coosewon, Rita, Comanche language instructor, Comanche Nation 
      College, Lawton, OK........................................    38
    Dinwoodie, David, Department of Anthropology, University of 
      New Mexico, Albuquerque, NM................................    57
    Demmert, Jr., William, Professor of Education, Woodring 
      College of Education, Western Washington University, 
      Bellingham, WA.............................................    30
    DesRosier, Joycelyn, Piegan Institute/Nizipuhwahsin School, 
      Browning, MT...............................................
                                                                     37
    Hermes, Mary, assistant professor of education, University of 
      Minnesota, Duluth, MN......................................    49
    Herrera, Carla, Pueblo DeCochiti.............................    26
    Hinton, Leanne, president, Society for the Study of the 
      Indigenous Languages of the Americas, Berkely, CA..........    24
    Ho'opai, Holo, student, Ke Kula `o Nawahiokalani'opu'u, 
      Hawaii, University of Hawaii at Hilo, Hilo, HI.............    44
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Kaplan, Lawrence D., director, Alaska Native Language Center, 
      University of Alaska Fairbanks, Fairbanks, AK..............    47
    Kawaiaea, Keiki, director, Kahuawaiola Indigenous Teacher 
      Education Program, and director, Hale Kuamoo Hawaiian 
      Language Center, Ka Haka Ula o Keelikolani (Hawaiian 
      College)...................................................    42
    LaPier, Rosalyn, Piegan Institute/Nizipuhwahsin School, 
      Browning, MT...............................................    35
    LaRonge, Lisa, Ojibwe Language Immersion School, Hayward, WI.    49
    Leno, Vina, Acoma Pueblo.....................................    26
    Navarro, Geneva, Comanche language instructor, Comanche 
      Nation College, Lawton, OK.................................    38
    Pecos, Travis, Pueblo DeCochiti..............................    26
    Rawlins, Namaka, director, 'Aha Punana Leo, Inc., Hilo, HI...    46
    Romero, Mary Eunice, College of Education, University of 
      Arizona, Tucson, AZ........................................    28
    Silva, Kalena, director, Ka Haka `Ula o Ke' Elikolani 
      College, University of Hawaii at Hilo, Hilo, HI............    42
    Sims, Christine, chairwoman, Linguistic Institute for Native 
      Americans and member of Pueblo of Acoma, NM................    26
    Wilson, William, Ka Haka `Ula o Ke' Elikolani College, 
      University of Hawaii at Hilo, Hilo, HI.....................    44
    Worl, Rosita, Sealaska Heritage Institute, University of 
      Alaska Southeast, Juneau, AK...............................    33

                                Appendix

Prepared statements:
    Brown, William Y.............................................    65
    Cheek, John..................................................    69
    Coosewon, Rita (with letter).................................    75
    Demmert, Jr., William (with attachment)......................    78
    DesRosier, Joycelyn..........................................    63
    Dinwoodie, David.............................................    84
    Hermes, Mary.................................................    91
    Hinton, Leanne...............................................    94
    Ho'opai, Holo................................................    99
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................    61
    Kaplan, Lawrence D...........................................   101
    Kawaiaea, Keiki..............................................   104
    Krauss, Michael E., founding director, Alaska ative Language 
      Center.....................................................   101
    La Marr, Cindy, president-elect, National Indian Education 
      Association................................................   109
    LaPier, Rosalyn..............................................   113
    McCarty, Ph.D., Teresa L. (with Attachments).................   116
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............    62
    Navarro, Geneva (with attachment)............................   126
    Rawlins, Namaka..............................................   129
    Romero, Mary Eunice..........................................   135
    Sims, Christine..............................................   140
    Wilson, William..............................................   145
Additional material submitted for the record:
    Albers, Patricia C., professor and chairperson, Department of 
      American Indian Studies, University of Minnesota (letter)..   151
    Blackfeet Nation (resolution)................................   153
    From Ocean Icons To Prime Suspects, Blaine Harden, Washington 
      Post article...............................................   155
    Sealaska Heritage Institute (proposed amendments)............   157

 
                     NATIVE AMERICAN LANGUAGES ACT

                              ----------                              


                         THURSDAY, MAY 15, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:42 a.m. in 
room 485, Russell Senate Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senators Inouye, Campbell, and Murkowski.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. I am sorry for all this inconvenience. I 
hope you will forgive us. We have 34 amendments remaining on 
the tax bill, and it is considered a very important measure, so 
it will be stop and go for a while. But I can assure you that I 
will be here all day and all night, if necessary.
    I have an opening statement, but I think all of you will 
agree with me that language is important; it is a link to the 
past, and I think it is an anchor for the future. We, in 
Hawaii, like the native people of Indian country, had to go 
through an experience where, forcibly, native languages were 
taken away. But today I am happy to report to you that in the 
State of Hawaii, the Hawaiian language is one of the State's 
official languages is taught in public schools, and we have 
found by studies and experience that those who are in the 
language immersion program generally have better academic 
performance; we have more students seeking higher education 
going through this method.
    [Prepared statement of Senator Inouye appears in appendix.]
    [Text of S. 575 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. So with that may I call upon the first 
panel: Leanne Hinton, president of the Society for the Study of 
Indigenous Languages of the Americas, of Berkeley, California; 
Christine Sims, chairwoman, Linguistic Institute for Native 
Americans and member of Pueblo of Acoma, of New Mexico, who 
will be accompanied by Vina Leno of Acoma Pueblo, Carla 
Herrera, Pueblo de Cochiti; and Travis Pecos, Pueblo de 
Cochiti; Mary Eunice Romero, College of Education, University 
of Arizona, Tucson; and William Demmert, Jr., Professor of 
Education, Woodring College of Education, Western Washington 
University, Bellingham, WA.
    Ladies and gentlemen, welcome.
    May I first recognize Dr. Leanne Hinton.

STATEMENT OF LEANNE HINTON, PRESIDENT, SOCIETY FOR THE STUDY OF 
     THE INDIGENOUS LANGUAGES OF THE AMERICAS, BERKELEY, CA

    Ms. Hinton. Thank you very much, Senator Inouye.
    I come from California, which is probably the most diverse 
part of this diverse country in terms of indigenous languages. 
Out of probably 85 to 100 indigenous languages that used to 
exist in California, one-half of them are gone now, with only 
documentation from linguists to recognize their existence; and 
the other one-half, about 50 living languages today, the vast 
majority of them have 5 or fewer speakers, all over 70 years 
old.
    But California, like other parts of the United States and 
like other parts of the world, has been going through a 
strengthening movement to make sure that their own original 
identity isn't lost, even as they adapt, per force, to the 
dominant society. Language is the center of these efforts, and 
it is wonderful to see that American language policy toward 
Native Americans has started to move in the same direction that 
the Native Americans themselves are moving in to try to keep 
their languages alive, to begin to see Native American 
languages as a resource rather than as a problem.
    As you know, for the vast majority of languages all over 
the country and, in fact, all over the world, very few people 
are learning them at home anymore, and so the problem is how to 
get new speakers if they are not learning them at home. And it 
is demonstrably true that the fastest and most effective way to 
get a critical mass of new fluent speakers of an endangered 
language is through the schools, the same institution that was 
used to destroy those very languages in the past. The languages 
are silent at home and in the community, and so the only path 
to fluency at this time is through language nests and language 
survival schools, where the main instruction language is the 
indigenous language itself.
    The Hawaiians and Blackfeet both named in S. 575 have done 
an admirable job of developing highly successful language nests 
and language survival schools, and have served as models to 
many other tribes, and we know through their hard work and 
leadership that these systems work successfully to educate 
students to be literate and fluent in their ancestral language 
and accustomed to using it in daily communication, and also are 
literate and fluent in English and fully prepared to go on to 
higher education in English-speaking institutions.
    Other language nests and survival schools have also 
developed or are currently being planned around the country, 
such as those of the Cochitis and Acomas in New Mexico, the 
Yuroks in California, the Ojibwe in Wisconsin, the Washoes in 
Nevada, the Mohawks in New York, the Lakotas in South and North 
Dakota, among others. ANA funding, granted by Congress through 
1992 Native American Languages Act, has been vital to the 
development of these programs, and I trust it will last for a 
very long time.
    There are many challenges to developing good survival 
schools, but they are surmountable. One of the severest 
challenges is often that those who know the language are too 
old to teach. And at the same time there are young tribal 
members who can teach, but don't know the language. How can 
these dedicated tribal members learn their ancestral tongues? 
In Hawaii there are universities and colleges where they can 
learn these things, but in California there is not.
    The Advocates for Indigenous California Language Survival 
and the University of California have been trying to develop 
solutions to this problem. In particular, the Master-Apprentice 
Language Learning Program for languages where professional-aged 
tribal members who didn't learn their language at home can 
begin to do so through intense apprenticeship to a speaker, and 
this model has been spreading through the country.
    I must say that from the vantage point of my home State, 
very few of the many tribes of California will be able to 
benefit from this bill. They are small tribes to begin with, 
with only a handful of elderly speakers, and so getting the 
critical mass of fluent speakers to even teach the language in 
the first place is the big challenge for us. And there is a 
sentence in 575 that says that small communities whose 
languages have few or no speakers can be assisted by language 
colleges or language survival schools, but this is vague and 
indirect, and I have been charged by the California Indians who 
I have been speaking to in the last few days to plead for close 
attention to the needs of these small groups.
    This is a sad time for Native American languages, many of 
which are disappearing before our eyes, but it is also a very 
exciting time when pioneering experiments in language 
revitalization are taking place and we are seeing the wonderful 
result of a new generation of children who are fluent in their 
Native American language and fully bilingual in English as 
well, with Hawaii leading the way in this. Long ago, previous 
congressional acts devoted enormous efforts to the schools who 
were charged with the eradication of Native American languages 
and cultural traditions. Now, in this hopefully wiser time, it 
behooves this Congress to devote an equivalent amount of effort 
to help indigenous people regain the languages that were erased 
from their lives, and I thank you for this bill.
    [Prepared statement of Ms. Hinton appears in appendix.]
    Senator Inouye. Thank you very much, Doctor. And you can be 
assured that we will do our best to restore the languages, some 
long forgotten, but they will be restored.
    And now may I call upon Dr. Sims.

 STATEMENT OF CHRISTINE SIMS, CHAIRWOMAN, LINGUISTIC INSTITUTE 
    FOR NATIVE AMERICANS AND MEMBER OF PUEBLO OF ACOMA, NM, 
 ACCOMPANIED BY VINA LENO, ACOMA PUEBLO; CARLA HERRERA, PUEBLO 
        de COCHITI; AND TRAVIS PECOS, PUEBLO de COCHITI

    Ms. Sims. Senator Inouye, thank you for giving me the 
opportunity to come and present our testimony.
    My name is Christine P. Sims, and I come from the Pueblo of 
Acoma, located in Northwestern New Mexico, and today I have 
brought with me the director of our Acoma language project, 
Vina Leno, who is sitting in the audience. I think she is in 
the corner there. And we are also accompanied by two young 
students from the Pueblo of Cochiti, they are also sitting in 
the back, Carla Herrera, Travis Pecos from the Pueblo of 
Cochiti.
    Senator Inouye. Will you all please be seated at the table.
    Ms. Sims. Senator Inouye, these young students are 
representing the Pueblo of Cochiti, their tribe has sent them. 
They are products of Cochiti's long efforts to implement 
language immersion programs, and they have become speakers 
again of their native language, and they will be coming back 
again this summer as participants in the Congressional U.S. 
Leadership Program. So this is their first introduction to 
Washington.
    Senator Inouye. Now they are senators.
    Ms. Sims. Now they are senators.
    Senator Inouye. Let us get into the top real quick.
    On behalf of the Pueblo of Acoma, Senator Inouye, and the 
Linguistic Institute, I appreciate this opportunity to present 
our support of S. 575, as well as our recommendations to the 
amendments proposed in the Native Languages Act. Today, as your 
committee reviews this vital and important Act, our hope is 
that this body will once more reaffirm its commitment to native 
people and to the survival of their languages and culture.
    As all of us know here in this room, for indigenous people 
across this Nation, the significance of issues that are related 
to language survival are inextricably entwined with cultural 
survival. For many native communities, the continuance of 
cultural values, traditions, and belief in governance systems 
are dependent on this continued transmission of language. 
Efforts to maintain and revise native language and to stem the 
pace of language shift are being seriously pursued in many 
communities throughout Indian country, through either school-
based programs or community-based programs.
    Language revitalization efforts in my home State of New 
Mexico are being implemented with tribes using community-based 
approaches, their purpose being to create young generations of 
speakers, as we see here in Travis and Carla today. The 
emphasis is on creating speakers from within these communities, 
and they are being taught by parents and traditional leaders 
and fluent-speaking elders in the community. Some of the 
efforts have been supported in part by language grants from the 
Administration for Native Americans.
    Among native language communities of the southwest, the 
phenomenon of language shift is increasingly evident, although 
it varies from community to community in a State like ours 
where there are 21 different tribes and six major languages. 
Among the Pueblo Indian tribes, language has always functioned 
as the medium of spiritual and cultural life among the 19 
Pueblo Indian tribes that speak these languages. The Athabascan 
language spoken by the Apache and Navajo people are equally 
vital to the continuation of their cultural heritage. Yet, we 
are all faced with the reality that language survival is 
threatened by tremendous socio-economic, educational, and 
socio-cultural pressures in today's society.
    The uniqueness of Pueblo languages in New Mexico reflects a 
history of some of the oldest and longest sustained cultures in 
this Nation. These languages have existed, and they still 
function primarily within a sociocultural and a socioreligious 
community context. As such, the oral tradition serves as a 
critical vehicle by which a community such as mine maintains 
its internal socio-cultural organization, its oral histories, 
its knowledge, and its spiritual life ways. As well, the 
theocratic nature of our traditional governance systems is 
dependent on speakers who can use the language in all domains.
    The implications for language loss, therefore, are 
especially significant given this context. Moreover, the 
erosion of these languages threatens the very core of spiritual 
belief systems that have been the foundation and the stability 
of Pueblo societies through countless generations. The survival 
of these languages in the 21st century as oral-based languages 
is a testimony to the resilience and the wisdom with which 
tribal elders and leaders have steadfastly refused to give up 
these languages.
    As was mentioned earlier, the efforts of Cochiti Pueblo is 
an example of some of the more positive efforts we are seeing 
in our state with regard to language revitalization. Travis and 
Carla here represent the hope of their community as young 
people who will one day be leaders in their village, fluent in 
the native language and capable of passing the language on to 
yet another future generation. They represent the future of 
young Native Americans who, while maintaining a healthy 
connection to community and family, are just as capable as any 
youngster in America in maintaining parity in academic 
excellence.
    The examples that I have noted today, Cochiti, as well as 
in the Pueblos of Acoma, Taos, and others, have not been lost 
on other tribes. We have seen many visitors come from within 
the State as well as outside to see our immersion programs. 
They include Ute Mountain Ute Tribes from Colorado, the San 
Juan Paiutes, and others. This informal network of language 
communities in the southwest represents a larger need for 
training and preparing a cadre of internal tribal expertise. As 
well, the unique set of considerations for language communities 
such as Pueblo people, who must honor the oral nature and 
traditions of their history, suggests that a demonstration 
program situated in the southwest may in fact be better able to 
serve their needs. Many tribes in the southwest find that close 
proximity to other language programs in their immediate area 
makes it possible to utilize tribal and limited program 
resources more efficiently. As well, the informal support that 
we draw from working with each other to develop new initiatives 
provides an immediate resource of first-hand information that 
is invaluable to training native speakers.
    As I mentioned earlier, I chair an organization called the 
Linguistic Institute for Native Americans. Over our 20-plus 
year history, we have been able to help in efforts such as 
those that I have just previously noted. The staff and training 
expertise that we provide is drawn mainly from the University 
of New Mexico's faculty who have expertise in native language 
planning, language teacher training, language revitalization 
issues, as well as experience in working in native language 
communities.
    In conclusion, the parameters within which many Pueblo 
communities function as tribes whose social structures are 
deeply rooted in traditional and oral forms of governance, as I 
have explained here, suggest a consideration of a training and 
demonstration program that we feel should be added into the 
proposed amendments to the Native Languages Act. Given our 
unique circumstances in the southwest, we hope this committee 
will entertain a recommendation that a fourth center of 
training be established that will serve native people of the 
southwest, with a particular focus on the following areas: 
Development and training programs for fluent speakers that will 
prepare them for language teaching in the community; 
development of administrative leadership that assists tribes 
and communities to undertake and sustain long-term language 
efforts; development of language teaching internships and 
mentorships that will help build the internal capacity of 
tribes to strengthen and sustain community-based language 
efforts; development of instructional language materials that 
will serve the needs of oral-based language traditions; 
language policy research that examines the long-term effect of 
Federal and State economic, social, and education policies on 
the survival of indigenous forms of governances, and the role 
that language plays in sustaining such systems; last, 
facilitating an understanding between tribes and governmental 
agencies about language survival issues that allows for 
appropriate collaborative measures of intervention and support.
    This concludes my testimony, Senator Inouye, and thank you 
again for the opportunity to speak today.
    [Prepared statement of Ms. Sims appears in appendix.]
    Senator Inouye. Thank you very much, Dr. Sims.
    You may have heard the bells. They are telling me I have 2 
minutes left to get to the Senate floor for a vote, so I will 
be running out of here. We will stand in recess for just a few 
minutes, and when I return, Dr. Romero will testify. And when 
the panel is completed, I have a few questions to ask.
    [Recess.]
    Senator Inouye. The hearing will please come to order.
    And now may I recognize Dr. Eunice Romero.

    STATEMENT OF MARY EUNICE ROMERO, COLLEGE OF EDUCATION, 
               UNIVERSITY OF ARIZONA, TUCSON, AZ

    Ms. Romero. Honorable Chairman, vice chairman, and 
committee members, thank you for the opportunity to testify 
today, and for your support and commitment to the indigenous 
nation's peoples and languages of this country. Today I would 
like to present to you some invaluable lessons we have learned 
in New Mexico and Arizona in regards to the native languages.
    As Dr. Sims discussed, the community-based initiatives in 
New Mexico are reaching some successes in renewing the 
ancestral languages. Cochiti, like many other indigenous 
communities, started out with no blueprint to guide us in 
revitalizing our language. Although we had the Hawaiian 'Aha 
Punana Leo preschool, the Maori language nest and the 
California master-apprentice models to borrow bits and pieces 
from, we realized in Cochiti that creating an approach that 
embraced the intellectual and oral traditions of our community 
required something different. Therefore, with the assistance of 
the Linguistic Institute for Native Americans, a New Mexico-
based organization that provides technical assistance and 
training resources for native speech communities and schools, 
Cochiti began its language renewal initiatives, which 
incorporated second language acquisition and immersion methods 
and techniques. Our goal was, and continues to be, the creation 
of new generations of Cochiti speakers. The two young Keres-
speaking Cochitis here today, Travis Pecos and Carla Herrera, 
are from the first cohort of children who began learning 
Cochiti in 1996.
    The community-based language renewal initiatives in New 
Mexico, although they are reaching some successes, and despite 
these advances, communities often do not have the financial or 
educational resources to effect any change. In this complex 
process of language renewal, communities need language 
teachers, materials, facilities, training on the teaching 
approaches and techniques, technical assistance in language 
program development, implementation, and long-term sustainment, 
as well as research. Therefore, while we support all of the 
proposed amendments, we also propose the inclusion of 
additional centers for language renewal for the southwest 
indigenous communities. The Linguistic Institute for Native 
Americans would be an ideal organization for this purpose. LINA 
is currently working with the New Mexico Tribal Nations and the 
New Mexico State Board of Education in the development of 
native language teacher licensure policies and requirements. 
The American Indian Language Development Institute, AILDI, is a 
summer institute held annually at the University of Arizona. It 
assists educators and community members in the teaching of 
indigenous languages in schools and communities. Along with 
LINA, AILDI will greatly contribute to the southwest indigenous 
language renewal efforts as university-based centers supported 
and funded by this legislation.
    Underway in other indigenous communities are school-based 
language renewal efforts such as the Navajo, Yup'ik, Hawaiian 
immersion education programs. Research and experience in 
indigenous communities in this country and around the world 
have proven that immersion education provides opportunities for 
indigenous children to acquire the necessary native language 
and cognitive competencies, while simultaneously developing 
their English and academic competencies. This is why these 
proposed amendments are crucial. They support practices and 
learning pedagogy that have been proven effective in promoting 
the acquisition of both native and English languages.
    Unfortunately, despite these advances in reversing language 
shift, standardization and English-only policies are exerting 
pressure on communities and schools to abandon the teaching of 
native languages. In our current research at the University of 
Arizona, my colleagues, Dr. Teresa McCarty and Ofelia Zepeda, 
and I are presently in our third year of a national study 
examining the impact of native language shift and retention on 
American Indian students' acquisition of English and academic 
content. Our preliminary findings reveal that under the 
pressure from current State and Federal educational 
accountability mandates and high stakes testing, many native 
language teachers in schools are abandoning the teaching of 
native languages. For instance, one native elementary school 
teacher, who had once been recognized by her school and 
community as an ``expert teacher'' of the native language, 
reported that she no longer uses the native language with her 
students in her classroom because ``We don't have time to teach 
the native language. We have been told to teach the 
standards.'' This potent example reveals that as indigenous 
communities are focusing on developing and implementing 
effective approaches and techniques for the renewal of their 
mother languages, these societal pressures are hindering their 
efforts. Clearly, legislative acts such as the Native Language 
Act and the proposed amendments are essential to the 
restoration and perpetuation of this country's indigenous 
languages.
    Thank you.
    [Prepared statement of Ms. Romero appears in appendix.]
    Senator Inouye. Thank you very much, Dr. Romero.
    And now may I recognize Dr. Demmert.

  STATEMENT OF WILLIAM DEMMERT, Jr., PROFESSOR OF EDUCATION, 
 WOODRING COLLEGE OF EDUCATION, WESTERN WASHINGTON UNIVERSITY, 
                         BELLINGHAM, WA

    Mr. Demmert. Thank you, Senator Inouye, for this 
opportunity to testify. I have had the privilege of testifying 
in earlier versions of this bill, and welcome the opportunity 
to come back, in part because of the success that previous 
legislation has had.
    I have had an opportunity to review over 10,000 documents 
that focus on the research of American Indians, and I have also 
looked at those documents in terms of the influence of language 
and cultural programs on academic performance of Indian 
children. And you have heard some testimony that addresses one 
of the main reasons, from the native community's perspective 
why this is an important piece of legislation. The reason is 
the support it gives culture and identity. Another very 
important reason, of course, is whether or not it influences 
improved academic performance. And, of course, there is a 
third, and that is the influence on cognition generally.
    In the 10,000 documents that I have had an opportunity to 
review, the research has been divided into three parts: 
Experimental studies, quasi-experimental studies, and non-
experimental studies. And out of that 10,000 we were able to 
identify 193 that were of high enough quality to give us some 
insights about the value of the language and cultural programs 
in the classroom. I will define each of these so we have a 
sense for what I am talking about.
    Experimental studies include a research design that employs 
a random assignment of subjects to treatment. That is the 
highest level of research and there are certain standards that 
must be met in order to be classified under this particular 
type.
    The second is quasi-experimental studies. This is a 
research design that involves the assignment of intact groups 
to treatment conditions; that means the group already exist. 
Typically, the unit of analysis, or N, is not the same as the 
sampling unit.
    The third type is non-experimental studies, which 
constitutes the bulk of the research that is available. 
Generally speaking, they are what we call causal-comparative or 
ex post facto designs. This may describe or explain what exists 
and sometimes compares them to other existing groups.
    The research generally does not say x causes Y; you need an 
experimental or quasi-experimental design for that. But what we 
do find, and I will cover what we have found, is that this 
research helps develops hypotheses that we can use as support 
concerning the influences of language and cultural programs to 
improved academic performance. And I will briefly describe what 
each of these are.
    Heritage language. Native American children who are taught 
using their heritage language will learn that language better 
than children who are taught in a dominant second language. 
Heritage language speaking children will lose competence in 
their native language to some degree when the language of 
instruction is the dominant language. That is sort of common 
sense. Children who are more proficient in their heritage 
language will also be more proficient in the dominant language. 
I think that is an important principle to keep in mind. There 
is some level of proficiency in a native language that must be 
achieved and maintained in order to avoid the subtractive 
effects of learning a second, dominant language. Last, programs 
that include locally-based heritage language and cultural 
elements will serve to strengthen the home-school 
relationships. And this connection may be an intervening 
variable explaining the increased student achievement.
    These hypotheses fit very comfortably into three of the 
theories that we have been using as part of the literature 
review. The first is called cultural compatibility theory; the 
second is cognitive theory; and the third is a cultural-
historical-activity theory, or CHAT. I won't go into what each 
of these mean, but generally speaking it means that there must 
be a high level of congruency between the culture of the school 
and the culture of the community in order for students to 
succeed.
    I am also an investigator in a project with the RAND 
Corporation that is reviewing the research literature, incuding 
also looking at NAEP data, National Assessment of Educational 
Progress data. David Grissmer is handling the NAEP piece, and 
he reports that American Indian students have made gains in 
reading, mathematics, and geography scores from 1990 to 2000. 
He also assessed black and Hispanic students, and their scores 
in reading and math, and the longer Native Students stay in 
school, the closer the gap between black and Hispanics and 
American Indian students. In other words, the black students 
and Hispanic students start gaining on the Native American 
students. The exception to these finding is geography, where 
Native American students do as well as anyone. We don't know 
the reason for that, but this is an interesting statistic in 
its own right and probably worth looking at.
    The bulk of the research in the literature, as I mentioned, 
is non-experimental, and one of the reasons I was interested in 
presenting testimony here is that we really need to take a 
careful look under some sort of causal comparative, quasi-
experimental, or experimental design that clearly ties improved 
academic performance to language and cultural programs because, 
from the experience I have had, those programs that incorporate 
those components in the educational program are very successful 
when compared to Native American students generally across any 
of the national tests that take place or any of the programs 
that are in monolingual schools.
    Thank you.
    [Prepared statement of Mr. Demmert appears in appendix.]
    Senator Inouye. Thank you very much.
    Am I correct to conclude, after listening to this panel, 
that language and culture have a very positive impact upon 
academic performance?
    Mr. Demmert. That is what the research implies that I have 
looked at, yes.
    Senator Inouye. Are there any negative aspects of combining 
language and culture with studies?
    Mr. Demmert. None that we were able to find in the 193 
documents that we reviewed, or studies that we assessed.
    Senator Inouye. What about the others on the panel? Do you 
agree with that?
    Ms. Hinton. Certainly do.
    Ms. Sims. I think the ties, and certainly we have got two 
individuals here that are examples of the positive effects that 
have come with study of language and culture, and being able to 
revive that and still maintain and, in fact, exceed, probably, 
academic performance. And I would agree that I don't see 
anything in terms of a negative kind of effect. The positive is 
what we are seeing quite a lot of when these programs are 
implemented and they are implemented in a way that meets not 
just their native language needs, but also their other academic 
needs.
    Senator Inouye. I also gather from your testimony that 
language and culture have a strong influence upon cultural 
identity. Is cultural identity an important factor in the 
establishment of self-pride? We are always talking about young 
people not having pride in themselves.
    Ms. Sims. Very much so. I can't say otherwise. Without that 
base and without that foundation, I don't know how any child 
would succeed other than to have that strong foundation of who 
they are and where they come from.
    Senator Inouye. I don't suppose you are going to let them 
down, are you?
    Well, with that, I will have to run back again to vote, and 
so I thank this panel very much.
    And will the second panel be prepared? Jocelyn LaPier, 
Geneva Navarro.
    Until then, we stand in recess.
    [Recess.]
    Senator Inouye. We will now resume our hearing.
    May I first call upon Dr. Rosita Worl of Sealaska Heritage 
Institute? Because I have been told that she has an aircraft to 
catch. If she doesn't, she is stuck here for the next 
millennium.
    Dr. Worl.

    STATEMENT OF ROSITA WORL, SEALASKA HERITAGE INSTITUTE, 
           UNIVERSITY OF ALASKA SOUTHEAST, JUNEAU, AK

    Ms. Worl. Yes; thank you very much, Senator. Thank you for 
holding this hearing and also thank you for being accommodating 
to my schedule. And also I want to thank your very respected 
staff person, Patricia Zell, who is well known throughout 
Indian country and very highly regarded.
    And if I may, Senator, I would like to introduce other 
people who are here from our region. Patrick Anderson, who is 
on our board of Sealaska, as well as on our Sealaska Heritage 
Board. We also have Jordan Lachler, who is our sociolinguist 
with Sealaska Heritage institute; Bertha Franulovich from Huna 
Totem; Lonnie Thomas; Bambi Kraus was here; and we also, of 
course, like to acknowledge Bill Demmert.
    I also want to pay special tribute to the Hawaiians, for it 
really was the Hawaiians who stimulated our thinking and our 
hope in dreams that restoring the languages of southeast was a 
possibility. We were very fortunate in going to Hawaii and 
visiting the model programs over there, where we learned a lot 
and we tried to apply those teachings. So we are eternally 
grateful to the Hawaiians for their support and their teaching, 
but most of all I think it was their inspiration.
    We have been operating language programs now for 4 years. 
Our languages in southeast have been characterized as moribund. 
And we didn't even know what that meant until we went to the 
dictionary and said it was death-bound. And we could not quite 
accept that, so our board of trustees made a determination that 
language restoration was going to be our highest priority. So 
we were trying to emulate the programs that we saw in Hawaii, 
and we were to some degree able to copy some of those programs. 
However, we came to find out that we have some differences, and 
so, as we were moving along, we began to change and to develop 
new programs.
    Our languages are spoken by probably those who are in their 
seventies and eighties and nineties. We only have like 11 Haida 
speakers left. We don't know how many, maybe a couple of 
Tsimshian people, and less than probably 500 Tsimshian Tlingit 
speakers. But, yet, even with that number, we have a glimmer of 
hope, and our faith is even renewed, because during our last 
commencement at the University of Alaska Southeast, we had one 
of our students speak for 45 minutes in Tlingit. He spoke in 
Tlingit and also he spoke for 45 minutes in the true tradition 
of a Tlingit, but I am going to keep mine to 5 minutes, 
Senator. So we know that we can be successful.
    Our approach has been to establish partnerships with school 
districts, with the University of Alaska Southeast, and also 
with native organizations. We have found funding in various 
sources, as well as we have had generous support from Sealaska 
Corporation, providing us our basic administrative support for 
all of our programs. In addition to that, we have been lucky in 
that we managed, even despite our financial situation at 
Sealaska, during this last year we were able to award $1 
million in scholarships, and some of that is dedicated to 
language.
    But probably the most significant program that we have was 
a demonstration project that we had at the Juneau school 
district. And in that program we taught Tlingit language and 
culture. We also insisted that we have constant monitoring of 
our children. And what we found after three years, that our 
children were succeeding academically; that they were doing 
better than other students in the same grades in the same 
school, but not having the benefit of language and cultural 
instruction. I attribute it to that instruction, but the other 
important aspect is that we had parental involvement. And we 
had parental involvement because we were teaching things that 
those parents saw as critical to survival of native people: to 
succeed both in the western world as well as in our traditional 
world.
    Perhaps the model program that we have had has been our 
Sealaska Kusteeyi Institute, which we hold in collaboration 
with the University of Southeast Alaska. And in that program we 
are moving toward certificates and degree programs. It is our 
hope that we are going to move towards that. But in the 
meantime what we are doing is we are teaching speakers how to 
teach, and then those teachers go back into our communities, 
into the multiple programs that we have in culture camps, 
preschool programs, we have one preschool program, and we are 
seeing success. I just attended a program in Hoonah where I saw 
the children speaking Tlingit, and then they would have to 
translate for their parents. So we know that it is achievable, 
even when we are at this point.
    So, respectful Senators, it is with great humbleness that 
we do submit a proposal to provide for a demonstration project 
at the Sealaska Heritage Institute for the revitalization of 
critically endangered languages. We think that we offer a model 
that can be replicated elsewhere, not only in Alaska, but in 
the rest of the country. We are working in partnerships with 
school districts and with the university. We are bringing the 
resources of our State, as well as the country, together, and 
in this partnership we think that we can be successful.
    Thank you.
    Senator Inouye. Thank you very much. I will have our staff 
work with you on your amendment. I know that you have to catch 
a flight, but before you do Senator Murkowski would like to say 
hello.
    Senator Murkowski. Thank you, Mr. Chairman.
    And I am sorry that I had to come in in the middle of your 
testimony, but I am pleased that I was at least able to hear a 
portion of it. We recognize the great opportunities that we 
have within some of our native corporations, and Sealaska 
specifically, and I applaud you for your efforts in keeping the 
languages alive. And we recognize that it is a challenge for us 
in the State. It ought not to be so. So I appreciate your 
efforts, and I look forward to working with you and the 
chairman on this project.
    Ms. Worl. Thank you very much.
    Senator Murkowski. Thank you for traveling all the way back 
here.
    Ms. Worl. Thank you, Senator. And also thank you for your 
work in working with Secretary Paige and coming to Alaska.
    Senator Murkowski. It was an eye-opening experience for 
him, and one that I am sure he will remember for some time. But 
it was a great opportunity for him to see, at least with our 
Yupic languages, how the immersion was working in some of the 
schools in western Alaska. So it was a good opportunity for all 
of us.
    Ms. Worl. Thank you.
    Senator Inouye. Thank you.
    Ms. Worl. Thank you.
    Senator Inouye. Thank you very much, Dr. Worl. We hope you 
have a safe trip.
    And may I now recognize Rosalyn LaPier. She is accompanied 
by Joycelyn DesRosier.
    Did I pronounce it correctly?
    Ms. DesRosier. Joycelyn DesRosier.
    Senator Inouye. Ms. LaPier.

  STATEMENT OF ROSALYN LaPIER, PIEGAN INSTITUTE/NIZIPUHWAHSIN 
    SCHOOL, BROWNING, MT, ACCOMPANIED BY JOYCELYN DesROSIER

    Ms. LaPier. Good afternoon, and thank you for this 
wonderful opportunity for us to discuss Piegan Institute and 
Nizipuhwahsin Schools. And we also would like to thank you very 
much for including us in this very important legislation. We 
feel very humbled and honored to be included, and we would just 
like to thank you for this great honor to be here.
    Piegan Institute, as you know, is a grassroots organization 
from the Blackfeet Reservation. We were formed by a group of 
Blackfeet educators who came together to address the issue of 
Blackfeet language loss. We still have the same group of 
founders who still run our organization and who still form our 
board of trustees. We are now approaching being in existence 
now for almost 20 years as a native language organization, and 
approximately about 10 years ago we decided to open a native 
language school for children. One of the things that we learned 
from a lot of our research that we had done in native language 
education, and in our discussions with a lot of elders, was 
that if native languages were going to continue, it was going 
to have to be the children who continued them.
    And we began our school, which is called Nizipuhwahsin, 
which means original language or real language in the Blackfeet 
language, and we have a school for children ages 5 to 13, which 
is approximately kindergarten through eighth grade. We have 
worked very closely with Aha Punana Leo in Hawaii. They were 
our mentors in organizing our school, and they have worked with 
us for the past 10 years in our efforts at our school, and we 
call them almost on a weekly basis, it seems like, to discuss 
all sorts of issues, from funding to working with public 
institutions to just the littlest thing, talking about our 
cook, you know. We work with them very closely and they really 
are our mentors in this effort.
    One of the things that we have come here to really 
encourage the Senate committee to support is the work of Native 
American language survival schools. We are a Native American 
language survival school, we are not a public school; we are 
separate from the public school system. We are a private, not 
for profit, and we do work very closely with the Blackfeet 
Tribe and the Blackfeet Tribe, in fact, constantly supports our 
efforts. We brought with us today a resolution from the tribe 
supporting this particular bill. So even though we are a 
private, not for profit, we do have a great amount of support 
from the tribe and from the community.
    One of the reasons that we got started as a separate 
institution was that we saw a lot of the efforts that were 
being made on behalf of native languages. Our community has 
tried every effort. We have Head Start programs; we have got 
programs in the public school system; bilingual education; we 
have high school classes in the Blackfeet language; we have 
classes at the community college; we do culture camps in the 
summer; we have created computer programs and multimedia 
programs.
    But the thing that we have discovered in our community is 
that the only thing that has created fluent speakers is our 
survival school. Although a lot of those efforts create some 
language retention, they do not create fluent speakers, and 
that is the bottom line for our community. Our community wants 
to create fluent speakers so they will continue the children, 
as they grow to be older and as they become adults, they will 
continue the language. And culture camps in the summer, 
language classes at high school, et cetera, do not create 
fluent speakers, and our school does.
    That was one of the reasons why we have been working a lot 
with elders. We have worked with elders since the beginning of 
our institute. And the elders are the ones who really stand 
behind what we do and they work with us very closely, and they 
have really strongly encouraged us to continue what we are 
doing.
    In the past 10 years of us running our school, we have had 
many ups and downs, and we have had many times where we have 
felt like there may be a point where we are going to have to 
stop, stop what we are doing and change to something else, and 
it was the elders who have really encouraged our efforts and 
told us of their problems that they have had with educational 
systems and how they were impacted by many of the educational 
systems, both parochial and public. And because of their 
encouragement, we have continued on, and this has been very 
difficult for us. Funding is always an issue. Because we are a 
private institution, we are not a public institution, we search 
for money every single year. And I know that there is, for us, 
anyway, as an institute, there is somewhat of a stereotype that 
we do have ongoing funding. We do not. And that is something 
that we would strongly encourage, not only our institution, but 
other institutions, that the whole movement of survival schools 
be recognized on a Federal level, but also be funded on a 
Federal level.
    And with that I will complete my testimony.
    And I would like to introduce Joycelyn DesRosier. Joycelyn 
DesRosier is a teacher at our school, and you met her son 3 
years ago when he came to testify. And she has been recognized 
by the State of Montana. We work very closely with the State of 
Montana's Office of Public Instruction, and this past year she 
was recognized by the head of the Office of Public Instruction 
as being the first State-certified teacher teaching in a 
language immersion school in the State of Montana.
    [Prepared statement of Ms. LaPier appears in appendix.]
    Senator Inouye. Oh, congratulations.

STATEMENT OF JOYCELYN DesROSIER PIEGAN INSTITUTE/NIZIPUHWAHSIN 
                      SCHOOL, BROWNING, MT

    Ms. DesRosier. Thank you. This was an address in my native 
language, and I said hello, my relatives. I am very happy to 
see you all here today.
    This is my son, Jesse DesRosier, who came here 3 years ago 
to lobby for the same bill. His Blackfeet name is Ahsinapoyii.
    Thank you very much, Senator Inouye, and the rest of the 
Senators on the committee here today, and the staff members, 
for allowing me to be invited to speak on this bill.
    It was 3 years ago my son came to lobby on this bill, at 
which time he came we were burying a very important lady in our 
community, a holy lady and a very valuable lady to me 
personally, Molly Kicking Woman, who taught me a lot of my 
ways, and still I can carry that on, but she is no longer with 
us today. She was a very holy spiritual leader and a teacher, 
and she was very inspirational in the school when I started.
    My son has been given the greatest opportunity while 
attending Nizipuhwahsin, the private immersion school in our 
town, for learning our language. He has been one that has just 
picked it up very fluently and speedily.
    Our language school has connected my family to our 
ancestors, as our language is so important to our people and 
our sacred ways of life. My son has been given the prestigious 
honor as being called upon by spiritual directors to carryout 
ceremonial ways only because he can speak the language and 
understand it. He is now 14 years old today, and he is sought 
out by a lot of people from not only our community, but other 
communities that speak our language, which is Canadians, the 
Canadian border. And they come and ask him and they praise him 
highly for learning his language. He would never have been able 
to learn our language without attending the immersion school.
    I also have another younger son that attends the immersion 
school and is learning our language.
    I began by bringing my small son there, my youngest son 
there, 6 years ago to attend school. Being a mother, I could 
not leave my child at school alone, so I started volunteering 
my time. Within 1 year I was given a teacher's position there, 
a teacher training position, where I committed to learning my 
language, and so far it has been great and a great learning 
experience, one that I couldn't obtain at any college or 
university, as they do not teach my native language.
    I began learning my language and then last year, through 
the private sector, we didn't have any funding, so I returned 
to college and finished my degree, because I didn't have a paid 
position at the school to continue out. So my learning for last 
year was a standstill because I could not learn the language; 
every day I wasn't in an immersion school setting. But I did 
practice a lot at home and go and sweep and clean the floors to 
pay my children's tuition.
    Yesterday, as well, was a very sad day at my home in the 
Blackfeet Nation, as we buried a very precious and dear 
grandfather of mine, someone who taught me and my sons our 
language and much of our sacred ways. We will miss him.
    Another sad day will be next week when I return home. My 
14-year-old son will graduate from this immersion school, where 
he has been protected and so immersed in the language and has 
become such a leader in my home and in my family. I can only 
hope and pray that he will be able to obtain and retain the 
language. It is not taught very well in the public school 
setting, as well as it is at the private immersion school. In 
our public school we have non-fluent speakers teaching our 
language, and some of them only know a few words and some of 
them don't pronounce them correctly. So they mostly focus on 
their skills, which may be in crafts, beading, drumming, 
singing, dancing, and sometimes stick game.
    My children are learning their native Blackfeet language 
through Nizipuhwahsin, our private immersion school. What they 
have learned and what I have learned has opened up a whole new 
world for us, a world many think is gone. My children's pride 
and sense of self-worth is so great that the hard work and 
effort we all spend in learning it makes it so worthwhile. They 
are singled out in our community and recognized for their 
ability to speak Blackfeet. They are looked at as leaders by 
their peers and with pride by their elders.
    Today I stand before you and ask for your support and thank 
you all very much. Without our language, we are just people 
among people. Our language keeps us connected to the first 
people of the native lands. My language gives me my identity as 
a Blackfeet woman. Thank you all.
    [Prepared statement of Ms. DesRosier appears in appendix.]
    Senator Inouye. Thank you very much.
    And do you wish to submit your resolution for the record?
    Ms. DesRosier. Yes; I do.
    Senator Inouye. Without objection, that resolution will be 
made part of the record.
    [Referenced document appears in appendix.]
    Ms. DesRosier. Thank you.
    Senator Inouye. And I can assure you that we are very 
serious, because if I were not serious, I would not be running 
back and forth, I can assure you.
    Ms. DesRosier. Thank you very much.
    Senator Inouye. Our next witness is Geneva Navarro, 
Comanche Language Instructor of Oklahoma, accompanied by Rita 
Coosewon, an instructor in the language, also from Lawton, 
Oklahoma.
    Mrs. Navarro?

  STATEMENT OF GENEVA NAVARRO, COMANCHE LANGUAGE INSTRUCTOR, 
   COMANCHE NATION COLLEGE, LAWTON, OK, ACCOMPANIED BY RITA 
             COOSEWON, COMANCHE LANGUAGE INSTRUCTOR

    Ms. Navarro. [Remarks in native tongue.]
    Hello to you and all my friends and relations here. Thank 
you for inviting the Comanches.
    The beginning of the loss of our language came from forced 
assimilation of our people and the Manifest Destiny policy, and 
it is still trying to be implemented through the English-only 
policies, which will leave all Native American children behind. 
We are losing our languages, which was not our fault. We have 
been trying everything to keep it from dying. Time is running 
out, especially for me.
    My name is Geneva Woomavoyah Navarro of the Comanche Nation 
from Oklahoma. I am 77 years old. Comanche was my first 
language. I have been teaching the language since 1990 to all 
who are interested. I am presently teaching Comanche at the new 
Comanche Nation College in Oklahoma. I am here to urge your 
support for the S. 575 bill to amend the Native American 
Languages Act that will provide support of the development of 
Native American language survival schools to assure the 
preservation and revitalization of Native American languages.
    Today I want to discuss four important points. First, the 
importance of the development of Native American survival 
schools and language nests, which are of great importance. The 
language nests will teach the youngest, who will learn it the 
quickest, retain it the best, and will continue it to fluency.
    The second one is the support for Native American language 
survival facilities and endowment. Without your support and 
support from the society that tried to kill our languages, we 
will not be able to undo the damage that may lead to the Native 
American language deaths. We need places, building for these 
nests and schools to nurture them. It takes more than physical 
work to develop the schools; it takes financial support that 
many Native American language programs do not have access to.
    The third is to encourage the amendment to S. 575 that 
would exempt teachers of Native American languages in public 
schools from having to obtain certification from outside their 
tribe. It is urgent because our speakers are dying fast. There 
are only a few of us speakers who are elders that are able to 
teach.
    And the fourth is on No Child Left Behind effects on the 
native languages because of its relation to English-only Act, 
which is a racist policy that only acknowledges English. It 
doesn't take into account our native languages that are 
endangered, and will endanger all Native American children. We 
need an amendment to S. 575 that the English-only Act policy 
does not overpower native languages, which will respect the 
fact that these languages helped save our country in World War 
I and World War II.
    [Remarks in native tongue.]
    The translation is: A long time ago we all spoke Comanche. 
Now we will all speak Comanche again. From now on we will speak 
Comanche forever.
    Thank you.
    And now I will introduce Ms. Coosewon, who is the only 
Comanche speaker that works in any public school in our area. 
But she has to work with a certified teacher above her; she 
cannot do it by herself.
    Thank you very much.
    [Prepared statement of Ms. Navarro appears in appendix.]
    Senator Inouye. Before I call upon Mrs. Coosewon, may I 
thank you for your very powerful message and may I tell you 
that you will be around when we pass this bill. As we would 
say, you are a young kid yet. I am two years older than you.
    Ms. Coosewon.
    Ms. Coosewon. Thank you all for inviting us here. Thank 
you, Mr. Chairman and members of the Senate Committee on Indian 
Affairs, for this opportunity to testify regarding this bill. 
There were so many things that I had written down here, but the 
message that Mrs. Navarro has put forth speaks for me in so 
many ways, and all of us in this room, and I think that I 
couldn't add too much more to what she has said that my 
testimony you have all gotten copies of. But there was a few 
things I would like to add.
    I do work in the public school system, and I have a lot of 
people that have encouraged me in the school system that I work 
in. I have high school students that I work with, and I also 
work with the Comanche College students. But the day that I was 
getting ready to leave class, I have a senior that is 
graduating, and rather than go over what I was going to in my 
testimony, he presented me with a letter and he has asked me, 
he says, Mrs. Coosewon, why can't we not help you? Can we not 
say something in behalf of our language? And can I write 
something and can you take it with you and let them hear what 
we have to say about the language?
    And so with that, I have that copy. I couldn't make any 
copies other than what he handed me, and if you don't mind me 
not saying much more on my testimony, which you have copies, 
can I just read his letter for you and let this be a part of my 
testimony?
    Senator Inouye. It will be.
    Ms. Coosewon. And we will consider Mrs. Navarro's really 
very well put together statement representing what we all have 
to say.
    Senator Inouye. Yes, ma'am.
    Ms. Coosewon. And I certainly appreciate it. Because I just 
turned 71 myself, and I was thinking what a turnaround. I was 
raised in a boarding school. I didn't even know how old I was 
when they put me there. My grandparents passed away, and I 
lived with them from when I was 2 years old, so I never knew 
any other language than what we speak. So I had a lot. But it 
is in my statement, you can read some of it. But I think what a 
twist for them to ask me to come and teach this language that 
they wanted so hard for me not to know. Our gracious heavenly 
father continued to help me remember. I am still me. I am 
myself. For this special gift that he gave me, this language 
that is so precious to me, that I want to help preserve all 
these precious languages.
    So by that I am going to read this young man's testimony 
here.
    This was dated May 12, his last day in high school, mind 
you. This is my senior that is leaving me. And we all kind of 
had tears in our eyes when he handed this to me when I was 
leaving class.

    Dear Senate, I write to you because I am unable to attend 
this meeting in person. This Comanche language class has meant 
a lot to me and the rest of the class. I have learned to speak 
a new language and learn and be a part of a different culture. 
It has furthered my understanding of America's complex natives. 
Without classes like this, we as Americans will forget where we 
come from. I am a one-fourth Cherokee and that means I would 
not be here without a Cherokee man. Learning about people like 
me, learning about my ancestors has made me appreciate my 
culture more. We have learned to speak many sentences and to 
hold conversations. We have learned the history of these people 
and many of their crafts. To stop these classes is to stop a 
culture living on. Please keep this class and others like it 
going on in our schools. With this I have only one thing left 
to say: Soobesu Numunuu sumuoyetu numu niwunu? etu. Ukitsi nunu 
tuasu numu niwunu hutui. Ubunitu tuasu numu niwunu hutui nuu.

    Ms. Navarro, I am just repeating what she had, but he wrote 
it down in his statement, about the language living on and we 
are going to speak Comanche forever. And they really stress 
this in my class at school.
    Tommy Lemons and the Elgin High School Comanche Language 
Class.
    And with that I would like to thank you all for the 
gracious hospitality you have shown us here for our stay for 
the few minutes that we have been here, the few hours we were 
lost here, and I want to thank you so much for your 
consideration of this bill, and I look forward to it being 
passed. Thank you so much.
    [Prepared statement of Ms. Coosewon appears in appendix.]
    Senator Inouye. I thank you very much, Mrs. Coosewon. And 
will you express the gratitude of this committee to your 
student? And his words will be made part of the record.
    Ms. Coosewon. Thank you so much.
    Senator Inouye. And I have just one question for the panel 
here. What percentage of your students go on to higher 
education?
    Ms. DesRosier. Our immersion school goes to the grade 8. 
Then after that they return to public school to grade 9 to 12.
    Ms. LaPier. And we have only been in existence now for 
about 10 years, so we are just beginning to graduate children 
from the eighth grade into the public school. So actually the 
students who have graduated out of our school have not actually 
graduated from high school yet.
    Senator Inouye. Would you say that their performance as 
students has improved?
    Ms. DesRosier. Oh, yes; their performance. They are all in 
the honor society, the highest honors in grade eight that 
return, nine, and ten. We have some going off reservation 
schools, and the principal keeps phoning and asking us what we 
did to these children. They are astonished because they are so 
brilliant.
    Senator Inouye. There must be some magic here.
    And, Mrs. Navarro, do you have any dropouts? Because we 
hear so much about students dropping out of Indian schools.
    Ms. Navarro. Definitely. They are dropping out like flies, 
I always tell the tribe. And we don't know what to do.
    Senator Inouye. But this will help?
    Ms. Navarro. I believe it will. They are beginning to know 
who they are. We are interesting some younger people, and they 
seem eager to want to learn our language, and I am sure it will 
help.
    Senator Inouye. Well, ladies, I thank you very much. I will 
have to go to vote; I just missed one. And we will stand in 
recess until 1:30, because I think all of you need some 
nourishment. Thank you.
    [Whereupon, at 12:43 p.m., the Committee recessed, to 
reconvene at 1:30 p.m., the same day.]

                           Afternoon Session

    Senator Inouye. I presume we have all had our nourishment.
    Now may I call upon the third panel, consisting of Lawrence 
D. Kaplan, director, Alaska Native Language Center, University 
of Alaska in Fairbanks; Kalena Silva, director, Ka Haka 'Ula O 
Ke' elikolani College, University of Hawai'i at Hilo; and 
William (Pila) Wilson, Ka Haka 'Ula O Ke'elikolani College, 
University of Hawai'i at Hilo, accompanied by Holo Ho'opai; 
Namaka Rawlins, Director of the 'Aha Punana Leo; Dr. Mary 
Hermes, Assistant Professor of Education, University of 
Minnesota. Oh, Mr. Keiki Kawaiaea. I am sorry.
    May I first call upon Dr. Kalena Silva.

    STATEMENT OF KALENA SILVA, DIRECTOR, KA HAKA 'ULA O KE' 
    ELIKOLANI COLLEGE, UNIVERSITY OF HAWAI'I AT HILO, HILO, 
 HAWAI'I' ACCOMPANIED BY KEIKI KAWAIAEA, DIRECTOR, KAHUAWAIOLA 
   INDIGENOUS TEACHER EDUCATION PROGRAM, AND DIRECTOR, HALE 
 KUAMO`O HAWAIIAN LANGUAGE CENTER, KA HAKA `ULA O KE`ELIKOLANI 
                       [HAWAIIAN COLLEGE]

    Mr. Silva. I ola no au I ku'u kino wailua, I oui mai e ke 
ali`i o Kahiki, Ke ali`i nana i `a`e ke Kai uli, Kai `Ele`ele, 
Kai Melemele, Kai Popolohuamea a Kane, I ka wa i po`i ai ke 
Kaiakahinali`i, Kai mu, kai lewa, Ho`opua ke ao ia Lohi`au, `O 
Lohi`au, i lono `oukou, Ola e, ola la, ua ola Lohi`au e, `O 
Lohi`au ho`i e!
    Thank you very much, Senator Inouye, for this opportunity 
to allow us to express our support for S. 575. We are very, 
very appreciative for this opportunity.
    As you know, my name is Kalena Silva. I am director of Ka 
Haka 'Ula O Ke'elikolani College of Hawaiian Language at the 
University of Hawai'i at Hilo.
    And I began my testimony with a chanted declaration by 
Lohi'au, who was the lover of Pele, Hawai'i's volcano goddess. 
Pele met Lohi'au on one of her dream travels to one of our most 
northerly islands in the chain, Kaua'i. Living on Hawai'i 
island some 300 miles south, Pele sends her sister, Hi'iaka, to 
Kaua'i to bring Lohi'au back to her. And in this ancient epic, 
Pele suspects that her sister Hi'iaka has romantic intentions 
toward Lohi'au, and Pele, as was her wont, flew into a fit of 
rage and jealousy and killed Lohi'au.
    Now, many in Hawai'i know that Lohi'au was killed by Pele, 
who was a foreigner according to Hawaiian tradition, coming to 
Hawai'i from Kahiki; however, few people know that the epic 
ends with a brother of Pele resuscitating and reviving Lohi'au. 
His wandering spirit flying hopelessly over a cave on Kaua'i, 
she snatches it and gently coaxes it back into the body of 
Lohi'au until once again he is alive, almost as if awakened 
from a deep sleep.
    In the last lines of his declaration that I just chanted, 
Lohi'au says:

    The now silent sea, the sea that floats on the horizon, the 
floating cloud brings forth Lohi'au. Yes, it is I, Lohi'au, 
body trampled by the foreign chiefess. I live once again!

    Like Lohi'au, we native Hawaiians are experiencing a 
rekindling of life through the revitalization of our nearly 
exterminated language. We want to join with other native 
peoples in similar circumstances throughout the United States 
so that together we may all move forward. Although Lohi`au was 
killed by Pele, her own brother, Kamohoali`i, brought him back 
to life.
    Now, there have been many Pele bills in the political 
history of Native American languages, bills that sought to kill 
our languages. S. 575 is her brother Kamoho-li`i's bill, and 
through it our languages, like Lohi'au, can find new life.
    Thank you again, Senator and members of the committee, for 
this opportunity to testify in favor of this very important 
bill that gives much hope for the linguistic and cultural 
future of Native Hawaiians and all other Native Americans. 
Mahalo.
    Senator Inouye. Thank you very much for this very beautiful 
and moving presentation. I appreciate it very much.
    Does Ms. Keiki Kawaiaea wish to say anything?
    Ms. Kawaiaea. Aloha kakou.
    Senator Inouye. Aloha.
    Ms. Kawaiaea. My name is Keiki Kawaiaea. I currently am the 
programs director for the Hale Kuamo`o Hawaiian Language 
Center, as well as the Kahuawaiola Indigenous Teacher Education 
Program, and I would like to talk about our work just briefly 
over the last 20 years.
    Our collective vision spans about 20 years of intensive, 
intensive work, and through these years we actually began with 
just a very small number of children. Our hands, our heart, and 
very sincere intentions to revive our language through our 
children.
    Through the years we have been able to increase our 
numbers, beginning in 1983, at around 32 speakers that we knew 
were native speakers under the age of 18, to currently about 
3,000 in the State. Our work has included the 22 schools we 
have across the State; elementary, some of them are 
intermediate or middle schools, high schools, we have a few K-
12 programs, along with 12 Punana Leo preschools. That, with 
the other work that we have been working with the university 
which I am at, including our lexicon work; all our new 
vocabulary to be able to teach all the different subject areas 
through our language; all of the see and eye support, including 
curriculum through all the different content areas of 
kindergarten through 12th grade; our pre-service; our in-
service professional developed training; our very advanced 
computer technology, which is pretty well known across the 
United States, including our own Hawaiian system in the OS-10 
system of the Macintosh computer. We have come a long ways.
    What we have learned through all of this experience is that 
we know that we can successfully implement programs which 
address the full range of academic needs, as well as cultural 
wellness of our students, the wholeness in all of them. And we 
can do this through our language and through our culture.
    One of the biggest challenges, however, has been sustaining 
a critical mass. I should say building of our critical mass, as 
well as our capacity. It has been an extreme challenge for us, 
even with all of this growth. From preschool, we are really 
moving up all the way up from a P, preschool, up to a doctoral 
program in which we just got approval to proceed with, a P to 
20 kind of format. We are really looking at the whole 
comprehensive model, but it has taken extreme planning and dire 
work among us to build that critical mass.
    And I just want to give one example of what that challenge 
is, specifically in teacher education. It is very difficult for 
us with decreasing numbers of native speakers, proficient 
speakers and cultural practitioners, as well as new proficiency 
amongst our new college students that are coming up. We don't 
have huge numbers graduating from fourth level Hawaiian that 
desire to go on into teaching, so the numbers of new teachers 
is a very big challenge for us in ensuring the high level of 
oral proficiency, their language proficiency, their cultural 
proficiency, as well as the teacher readiness. That is already 
in itself a big challenge.
    Then our very limited amount of resources of our Kupuna 
that we have that can work into the classroom. With the No 
Child Left Behind, it has become extremely increasingly more 
difficult, and I would really like to plant a little seed, if I 
could, that some thought be given to a waiver for those of our 
Kupuna that now need to have an AA degree but are at an age 
where their wealth of wisdom is in their life experience, and 
that is a value that they bring into the classroom that we 
cannot provide from the university level.
    The other is some possible provisional exemption or 
alternative certification for those that are native speakers 
that are of younger generation that we can bring into the 
educational setting so that we have a full range of 
possibilities to increase our critical mass and help us build 
our capacity for immersion education.
    Mahalo.
    [Prepared statement of Ms. Kawaiaea appears in appendix.]
    Senator Inouye. Thank you very much.
    And may I now recognize Dr. William Wilson.

    STATEMENT OF WILLIAM (PILA) WILSON, KA HAKA 'ULA O KE' 
  ELIKOLANI COLLEGE, UNIVERSITY OF HAWAI'I AT HILO, HILO, HI, 
       ACCOMPANIED BY HOLO HO'OPAI, STUDENT, KE KULA 'O 
  NAWAHIOKALANI'OPU'U, HAWAII, UNIVERSITY OF HAWAI'I AT HILO, 
                            HILO, HI

    Mr. Wilson. Aloha, Senator. I want to thank you very much 
for having us here and all these people from throughout the 
United States. You have done a lot for native languages over 
the years, and we really appreciate it. And, in fact, some of 
the things that you have done in the past I believe that people 
have mentioned other programs that have grown because of the 
1992 amendments that you made which allowed for public schools 
to have the languages and community groups.
    This particular bill relates to a new step, which is to be 
able to go to school in your language. Hawaiians are fortunate 
that there was an example of this that existed in the past; 
some other tribes had that, such as the Cherokees, and I know 
the Choctaws had that, and others had bits of missionization 
through their languages. But this is the first time in the 
modern history of the United States that the Government is 
supporting this idea.
    It is very, very important because people generally now, 
because the languages have been suppressed for so long, do not 
realize what you can do with a language, that you can study 
math and you can study science in your own language. Math and 
science are not unique to English. In fact, the word 
``algebra'' comes from Arabic and geometry came from the 
Greeks, it wasn't from the English. So we can study math and 
science in Hawaiian, but many people doubted this.
    They also doubted that we could have children learning 
English if they went to school in Hawaiian. And we go to school 
in Hawaiian quite seriously. Totally in Hawaiian from 
preschool, totally in Hawaiian all the way through fourth 
grade. Fifth grade they begin to study English. Now, these 
children can already speak English; they learn it in the 
community. They even begin reading and writing English on their 
own because they can read Hawaiian and they can read big books 
in Hawaiian. So in fifth grade they begin English with what is 
the book about the pig and the spider? Charlotte's Web. I know 
because my wife is such a great teacher. So they do that book 
and they continue on.
    They have English all the way through 12th grade as a 
language arts class just as they do in the English school, and 
they have the same things that they study. But they also have a 
Hawaiian language arts class, so they study Hawaiian epics such 
as Kalena did a bit of an expert quotation from, they do short 
Hawaiian stories, and then in English they so Aesop's Fables 
from the Greeks, they do even Chaucer and Shakespeare in the 
upper years. But they can compare that to the Hawaiian 
tradition. Their viewpoint of those things is from the Hawaiian 
viewpoint rather than saying, oh, Hawaiian this is like 
Shakespeare or Hawaiian this is like Chaucer. So we are very 
proud of that. They can do science. So I think it is important 
that people realize that if you are going to do this, you have 
to be very serious.
    And I am going on a little bit, but one thing that I read 
recently that really struck home was they have done studies of 
children who have been adopted from Korea and Russia at seven, 
six years of age, and they have completely forgotten the 
language. So we need to continue at least to grade six, seven, 
eight, at the very least, if they are going to remember.
    So with that I would like to introduce one of our 
graduates. We have had about 100 immersion graduates now. No 
dropouts so far. Over 80 percent have been accepted to college, 
and this is one of them who is going on to Stanford.
    [Prepared statement of Mr. Wilson appears in appendix.]
    Mr. Ho'opai. [Remarks in native tongue.]
    Greetings, Mr. Chairman and members of the Senate Committee 
on Indian Affairs. My name is Hololapaka'ena'enao Kona Ho'opai, 
and I am a senior attending Ke Kula 'O Nawahiokalani'opu'u, one 
of a few Hawaiian immersion schools or programs in the State of 
Hawai'i, and I am very happy and thankful to be here today to 
testify in favor of this bill.
    I began my education in the first grade at six years of 
age, and I graduate on the 24th of this month. I can honestly 
say that if it was not for this program, I would not have 
become fluent in my native tongue, nor would I have gained a 
great awareness of my culture and an understanding of who I am, 
where I am from, where I fit in my community, and what my roots 
are.
    The education I received is truly unique and innovative. 
The immersion education provides a holistic learning 
environment that not only instills cultural values upon 
students, but also provides quality academic courses. I have no 
doubt in my mind that I have the ability to succeed in a non-
Hawaiian language setting, with my recent acceptance to 
Stanford University. I can honestly say and genuinely say that 
I, along with other immersion students, not only in Hawai'i but 
also outside, can succeed in all settings. The immersion 
program really taught me how to grow up and how to live not 
only in that program, but also outside, and how to gain 
knowledge not only within, but also outside, and come back and 
try to use what knowledge you have gained to improve your home 
and your setting.
    I would like to thank you for this opportunity to support 
this bill, and I would also like to thank all of the people in 
support of this bill, because even though we are sitting in 
different canoes, we are all on the same stream paddling in 
unison towards the same direction.
    Mahalo nui loa. Thank you very much.
    [Prepared statement of Mr. Ho'opai appears in appendix.]
    Senator Inouye. Thank you very much. One of these days I 
hope you will take me to a performance of Shakespeare in 
Hawaiian.
    Mr. Ho'opai. Sure. Sure.
    Senator Inouye. How would you say ``to be or not to be''?
    Mr. Ho'opai. [Remarks in native tongue.]
    Senator Inouye. That sounds pretty good.
    And now may I call upon the director of 'Aha Punana Leo, 
Namaka Rawlins.

 STATEMENT OF NAMAKA RAWLINS, DIRECTOR, 'AHA PUNANA LEO, INC., 
                            HILO, HI

    Ms. Rawlins. [Remarks in native tongue.]
    Thank you, Senator Inouye, and aloha to you, Senator 
Murkowski. I just met you last night at our shindig over at the 
reception; it was very nice. And thank you, Senator and the 
staff and everyone here that have come to show support for this 
bill that you introduced again this year, Senators, S. 575. The 
years that we have worked together with you, it is just, I 
guess just awesome and overwhelming that you continue to 
support us at home and to hear how everyone just loves you, you 
know, from all the other States, from Indian country. It gives 
us much pride. And to see how you want to recognize us, the 
Punana Leo, with our consortium, Ka Haka Ula O Keelikolani, at 
the Federal level to honor the work that we have done all of 
these years. It has been 20 years. It has been a beautiful 
ride, and it is an experience that, you know, we want to share.
    In fact, we have been sharing all of these years with those 
that want to come and see our model in Hawaii. A couple of 
years ago the Ford Foundation gave us a grant because we needed 
the human resource to help us take people around and coordinate 
and come and see our Punana Leo babies, then into the 
kindergarten classroom, up into the college, and developing 
curriculum, and doing everything, you know, spinning all of our 
plates all at once.
    And he [Holo] is in the fifth graduating class. We have had 
four other graduating classes that have come through the 
program, and it is just wonderful to have our own student from 
Hilo, from Nawahiokalani'opu'u, come here today and testify and 
to verify and validate the work that we have done all of these 
years. And we are more than ready to charge some more with what 
you propose for us to do in our consortium as demonstration 
sites, along with the Blackfeet and all of the other indigenous 
peoples that want to, that have the desire to carry this kind 
of work forward for [remarks in native language] language 
survival.
    [Remarks in native language.] Aloha.
    [Prepared statement of Ms. Rawlins appears in appendix.]
    Senator Inouye. Aloha and mahalo.
    I am glad our recording secretary understands native 
languages.
    Ms. Rawlins. Only 13 letters.
    Senator Murkowski. You make it sound so simple, so 
beautiful.
    Thank you, Mr. Chairman. I would like to introduce the next 
panelist, and I appreciate the favor that you have accorded me 
in welcoming Dr. Lawrence Kaplan, the director for the Alaska 
Native Language Center at the University of Alaska in 
Fairbanks.
    Dr. Kaplan, welcome. Thank you for being here.

   STATEMENT OF LAWRENCE D. KAPLAN, DIRECTOR, ALASKA NATIVE 
 LANGUAGE CENTER, UNIVERSITY OF ALASKA FAIRBANKS, FAIRBANKS, AK

    Mr. Kaplan. Thank you, Senator Murkowski, and thank you 
both for taking time out of your busy schedules and for 
inviting us here to testify on this important bill.
    It is an honor for me to sit here with my Hawaiian 
colleagues, who have given us so much inspiration in the area 
of language immersion schools and Hawaiian language programs at 
all levels, so I am very happy to be here with them.
    Dr. Michael Krauss had hoped to be here today, but his 
personal situation has meant that he can't attend, and so he 
sends his regrets.
    The core of my testimony today will concern the vital need 
for documentation of languages and the urgency of this 
documentation in the case of languages whose survival is 
threatened.
    The documentation of languages makes an important 
contribution to human knowledge and is essential to the 
production of sound dictionaries, grammars, and educational 
materials for native languages. Even the relatively few Native 
American languages still spoken by children are endangered. 
This is the case of Navajo, for example, our largest language 
in the United States. Without documentation, this fundamental 
aspect of a nation's culture will be irretrievably lost. If an 
undocumented language ceases to be spoken, it is condemned to 
oblivion. The loss of any American language is a loss to all 
Americans.
    Linguists have the expertise to determine what language 
data must be recorded in order to enable future revitalization 
efforts and in order to make language teaching possible. 
Languages are enormously complicated systems. Native languages 
are very different from European languages, native languages 
are very different from each other, and there is a great deal 
of study and research that is needed to backup a sound 
education program. Experienced linguists are required to 
understand grammatical systems accurately and to formulate 
rules which describe them.
    At the Alaska Native Language Center, we feel a scholarly 
responsibility to find, procure, and account for all previous 
documentation of native languages. And in the case of Alaska, 
this goes back to the year 1732. Concentrating on Alaskan 
languages, we strive nevertheless to provide a full perspective 
on whole language communities and language families, bringing 
to bear material from related languages outside of Alaska. For 
instance, Canadian, Greenlandic and Siberian Eskimo, or Navajo 
and Apache in the case of Athabascan, representing our two 
major language families in Alaska.
    Resources from related languages must be considered for the 
information they contain and for the model they provide. These 
resources are sometimes written in French or Danish or even 
Russian, and they may be 200 years old, and all of this 
requires a scholarly approach. Further, contact among 
communities of speakers of related languages and dialects, 
whether this is within the United States or international, must 
be encouraged so that language work is cooperative. We cannot 
afford duplication of effort. Traditional efforts cannot 
normally be expected to have access to far-flung archives or 
contacts; whereas academics can and should be in the best 
position to provide and interpret research results to the 
communities.
    The staff at the Alaska Native Language Center and Dr. 
Krauss have compiled an archive of some 10,000 items 
documenting the State's languages and serving as a model for 
other States and groups interested in undertaking their own 
language documentation so that there is an accessible 
collection of material. ANLC is involved in working with 
communities on conducting their own language documentation by 
training students and native speakers in techniques of applied 
language research. We are experienced in native language work 
and prepared to assist native groups and communities in 
learning to meet their own needs for language documentation and 
collection and archiving of language materials.
    A special aspect of the Center involves the strong voice of 
native people in Alaska, who are over 15 percent of the State's 
population. They have given the Center an important service 
orientation which is not found in the same way in academic 
linguistics and anthropology departments with their theoretical 
orientation. We have developed a strong focus on documenting 
languages and we have hired expert native personnel and native 
speakers.
    The Alaska Native Language Center is prepared to fulfill 
the role of demonstration center specified in S. 575, and we 
believe we would work in good complementation with the other 
two centers. We would be pleased to be of service to Native 
American groups interested in language analysis, documentation, 
and archiving. We are also in a position to advise on some of 
the complex issues that No Child Left Behind poses for native 
languages.
    That concludes my testimony. Thank you all very much.
    [Prepared statement of Mr. Kaplan appears in appendix.]
    Senator Inouye. Thank you very much, Dr. Kaplan.
    And may I now recognize Dr. Mary Hermes.

  STATEMENT OF MARY HERMES, ASSISTANT PROFESSOR OF EDUCATION, 
   UNIVERSITY OF MINNESOTA, DULUTH, MN, ACCOMPANIED BY LISA 
     LaRONGE, OJIBWE LANGUAGE IMMERSION SCHOOL, HAYWARD, WI

    Ms. Hermes. Thank you, Senators, for the opportunity to be 
here today. The first thing I would like to do is introduce 
Lisa LaRonge, who is accompanying me today, and she would like 
to greet us in Ojibwe.
    Ms. LaRonge. [Remarks in native tongue.]
    Ms. Hermes. [Remarks in native tongue.]
    I am Mary Hermes. I am a professor of education at the 
University of Minnesota Duluth. I am very happy to be here 
today, and honored to sit among people I consider my heroes.
    I would like to make three main points. I think the main 
reason I am here, actually, is because I am a parent of two 
children in the Waadookodaading Ojibwe language immersion 
school, which has been started in Hayward, Wisconsin, and 
running for two years now. We are at the beginning of a long 
journey. We are at the beginning of our first hill.
    My professional expertise is in educational research and in 
teacher education. The three points I want to make today are, 
first of all, about the need for more language immersion 
schools in our area; second, I would like to mention my 
research, which points to language immersion as a potential key 
for Indian education for academic success; and last I would 
like to make recommendation for alternative teacher 
certification programs for our language immersion teachers.
    I have been very fortunate in being invited into this 
movement through the research work of two language activists. 
Through the work of research conducted through an ANA grant at 
the Lac Courte Reservation, Keller Paap and Lisa LaRonge really 
came to see clearly the need for an immersion school because 
our language resources are so sparse. In 1999 they surveyed the 
reservation of about 1500 residents and found only 15 speakers 
alive, 15 people whose first language was Ojibwe, all of them 
above 60 years old. There is less today, I think there is about 
10. The other 13 reservations in the three-State area, 
Minnesota, Wisconsin, and Michigan, are in similar situations. 
Some reservations have no speakers they can identify from their 
area; some reservations have more. We are the first immersion 
school and everyone is talking about it now. It is a light.
    Through the research work that they did, they recognized, 
Keller often put it that the resources we have are like a pat 
of butter, and we are trying to spread it on a football field. 
And that is what led them to go to the Blackfeet school and see 
what they were doing. It led me to go to the Hawaiian school, 
to the Mauris, and study the immersion model and then start. So 
we had a pilot and then we have two years as a charter school 
in the border town of Hayward, Wisconsin, that borders the 
reservation, where people said don't go to that school, we 
walked out of that school 20 years ago to start our own school 
because that school was so racist, don't go there. But this 
movement is bringing people together. It is powerful, it is 
healing. It is bringing people across boundaries together, and 
that is how we started.
    The second point I want to make is about my research in 
culture-based education. I have been doing that for about 10 
years. My Ph.D. is in curriculum instruction from the 
University of Wisconsin Madison. And through researching, I was 
very interested in the culture-based movement, and I will just 
briefly summarize 10 years of research and say that my question 
was why doesn't culture-based curriculum, which is like a 
mantra for us in Indian education, why hasn't it produced more 
academic success. Why do we still have such very high dropout 
rates? Why do we still score 30 percentile points below non-
native students on all our proficiency tests?
    And what I found in the two-State area was that it has 
really grown up as an add-on curriculum: Culture, academics. In 
the tribal schools, the culture classes are added on. We are 
forced to have certified teachers in our tribal schools. The 
certified teachers, 80 percent of them are non-native. Even in 
our tribal schools they are mostly non-native teachers. They 
come in at a higher pay rate and a different curriculum than 
our culture teachers who are native people from the reservation 
areas. So you can see there is two competing curriculums in the 
same schools.
    Further, when I talk to students, many of them read this as 
an identity choice. So they would read academic success as 
assimilation. They read that as becoming white if I get good 
grades. They read in succeeding in the culture-based 
curriculum, I am being Indian. So it becomes a choice: be 
Indian or be smart; be assimilated or be native. And this work 
echoes other work by Cygnithia Fordham and John Ogboon from the 
African-American communities. They find that students see 
academic success as tantamount to assimilation.
    This concerned me very much, as a person who believes very 
deeply in the power of education. As I was doing this research, 
I was talking with Lisa about them seeing the need for an 
immersion school, and I felt like it fell out of the sky. 
Language is an answer to the problem of bringing the academic 
and the culture curriculum together. So much research shows us 
that second language research has many benefits, metacognitive 
benefits, academic benefits, and yet you can see the world 
still through that indigenous lens so that the affective 
benefits of identity, intergenerational connectedness, self-
esteem are also there as well. Language brings the two 
together.
    The third point I want to make is about teacher education. 
As I mentioned, one of the main reasons I think that the two 
curriculums have been competing and so differentiated is 
because of the strict need for teacher certification. I have 
been professionally making teachers for 7 years. I believe in 
it deeply. I think there is so much to it, so much to be 
learned. I don't think, and the Mauris also advised us this 
way, we don't need to just slide our language teachers through 
and say, well, you are not certified, but you can teach. They 
need to have training, they need to be ready to teach. It is a 
license to drive our children.
    And yet the two speakers that we have at our school, they 
are both in their thirties and they have learned as a second 
language. It has taken them 10 years to get to the level of 
proficiency they need in order to be able to teach in 
immersion. We cannot pull them out of teaching for a 4-year 
degree program; they need some kind of alternative 
certification.
    So we support very much the Hawaiian's effort and their 
desire to be a demonstration school. We don't really know what 
that means, but we do know that in our area we need to pull 
together the 13 bands. We have already started talking about 
the need for a curriculum center or an administrative center 
because our schools are so small. So we are also interested in 
that idea.
    And I think I will stop there.
    [Remarks in native tongue.]
    [Prepared statement of Ms. Hermes appears in appendix.]
    Senator Inouye. Well, I thank you very much, doctor, but 
Senator Murkowski and I will have to dash off to vote. So can 
you stick around for a while?
    Ms. Hermes. Yes.
    Senator Inouye. We will be right back.
    [Recess.]
    Senator Inouye. I am sorry to tell you that the voting will 
continue on until about 8 o'clock tonight, so we are getting a 
good exercise.
    I would like to begin by saying how proud I am to hear all 
of the witnesses say that Hawaii has been a model, Punana Leo 
has been an icon, a leader. It makes me feel good. It makes me 
very proud.
    In your studies, have you found that culture and language 
studies help to attack the dropout rate among Native Hawaiian 
students?
    Mr. Wilson. Yes, Senator; in our immersion program now, as 
Keiki said, we have about 3,000 kids now, and so far, to my 
knowledge, there has not been a dropout. We have had children 
go to other schools, but we haven't had any dropout of 
education.
    Senator Inouye. Not one?
    Mr. Wilson. Not that I know of. And we kind of talk about 
each other quite a bit, you know, what is happening over there 
and all that. So there may have been, but I haven't heard of 
any. I know about those who go to other schools and things, 
they move. Each one is very precious to us.
    Senator Inouye. This is the system that has the greatest 
number of years of experience in this area, so you may be able 
to respond to this. All of the witnesses have been speaking of 
the positive impact, the favorable side of language immersion. 
Is there any negative impact of this program that we should 
address?
    Ms. Kawaiaea. I think I am going to address that from my 
experience as being an immersion teacher as well as being 
somebody that trains teachers up at the university. I think 
experience in the long-run has been more positive than 
negative.
    The negative that I could count has to do with attitudes of 
the surrounding community, you know, the old attitudes that you 
must learn English, that you can succeed better in English. So 
even within the children's own families, grandparents that were 
native speakers, that were beaten and scolded for speaking 
their native language, those kinds of attitudes seem to 
continue down the generations, and so we have seen this 
attitude shift about attitudes toward language, the community 
in the general that there could be more success in regular 
English medium, so how is it possible that Hawaiian could have 
a greater success. But the fact is we have between an 80 to 85 
percent college acceptance rate, and as Pila said, we don't 
know of any of our students that have dropped out, and we 
currently have about 3,000 students in our schools and five 
classes that have graduated already. So it is pretty amazing.
    Senator Inouye. Now, when you speak of community 
acceptance, what community are you speaking of?
    Ms. Kawaiaea. Communities across the State where there are 
immersion children attending.
    Senator Inouye. So you are not speaking of the Native 
Hawaiian community.
    Ms. Kawaiaea. Yes; many of our schools are within homestead 
areas, as well as non-homestead areas.
    Senator Inouye. And the people there are not too keen about 
your program?
    Ms. Kawaiaea. I think that is the original, the very first 
impression that they get because of their historic experience 
in education and the failure of their students within the 
community. So how can you succeed adding on, this is what they 
are thinking, adding on, and perhaps we are not teaching 
through, we are teaching the language. So the concept of what 
we are trying to do isn't quite connecting; that we are in fact 
not teaching to speak Hawaiian, we are teaching through 
Hawaiian. That concept is really still a new concept in the 
islands.
    Mr. Wilson. Could I say something about this? I think what 
we need to do is get the word out about our successes, because 
the language has been considered like Hawaiian language and 
culture have been considered a bit of a baggage that holds 
people back in the past, and so many people have aloha for the 
children, they worry that we are harming the children. And then 
you get rumors going around here and there, those children at 
this school don't speak English, they can't speak English, they 
are not doing well academically; it is just the opposite of the 
truth. So what we have to also address getting the word out in 
the community, and this year Namaka did have some ads during 
the Merrie Monarch, which were very good on TV, to let people 
know of the success.
    Ms. Rawlins. I think the other thing that is going to help 
with letting people know is what was discussed in the first 
panel, about the kind of research that needs to be done that is 
going to get that message out, because in order to change 
attitudes, it is baggage and baggage kind of hung on into our 
Native Hawaiian community, once we get the word out that you 
don't have to give up one to do the other.
    Senator Inouye. Several witnesses have suggested that the 
No Child Left Behind Act has had some negative impact upon 
language immersion.
    Mr. Wilson. For example, on the State of Hawaii in 
compliance with No Child Left Behind is giving tests to 
children throughout the public schools, and because our 
immersion programs are connected to the public schools, they 
are required to have a test at third grade, and it is a 
standardized test in English, but our children do not start 
reading and writing in English until fifth grade, so it is very 
difficult to pass a test that you don't study. I mean, it is 
completely unrelated to their studies. And then the rule is 
that if you don't pass for a number of years, that your school 
will be closed down. So I know in some of the immersion schools 
the parents have had a blanket refusal to take the test, but 
something needs to be done about that.
    Ms. Rawlins. The other thing we need to do, I want to add 
one more thing about the No Child Left Behind, and I think it 
came up throughout the whole testimony, and we don't know and 
maybe that is something that we can be discussing, is to find a 
way that we can utilize the traditional language and culture 
experts in our schools, much like the Comanche women had said 
earlier. We don't know, we need to find a way to use them, to 
be able to use them, and that not only No Child Left Behind, 
but any other legislation that comes up that would hinder the 
movement of language survival schools or use and promotion of 
the Native American languages, that it doesn't hamper the 
forward momentum, but that there are roadways that we can make 
through. And I might not have the answer right now, but I think 
with others working we can come up with something really good.
    Senator Inouye. Senator Murkowski wanted to be here, but 
she has many conflicting schedules. But she has asked that I 
call upon Dr. Demmert.
    The question is does the No Child Left Behind Act present 
problems for the native language programs.
    Mr. Demmert. I think that to a large extent Pila and Namaka 
have responded to that very well. In the first instance, Pila 
points out that when you require testing in English and your 
students have been going to school in the native language, you 
have got a problem. They should really be tested in the native 
language. That doesn't mean they are not going to learn English 
or they won't catch up and surpass the monolingual students who 
are going to school in English at some point. I think the 
research that I testified about earlier implies that there is a 
good chance that bilingual children when properly supported, 
will do as well or better than mono-lingual students.
    The second piece that Namaka addressed is the importance of 
continuing to use the traditional language and cultural experts 
of the different communities, who probably have not had an 
opportunity to go to school, and the need for some kind of 
waiver to ensure that those skills are utilized. I think that 
is true in Alaska, it is true in Hawaii, it is true in any part 
of the Continental United States, and I know it is true in the 
circumpolar north. I do a lot of work with Greenland, and they, 
of course, are Inuit Eskimo that have migrated across from 
Alaska. I mention to them periodically that we waved to them as 
they went by about five or 6,000 years ago. I also work with 
the Sammis in the nordic countries, and the same thing is true 
there. In both of those international communities the countries 
have given a high priority for traditional speakers and for the 
native languages.
    Senator Inouye. I am sorry she was not here to listen to 
that, but she wanted that on the record.
    Mr. Demmert. Thank you.
    Senator Inouye. Dr. Kaplan, you suggested that a center be 
established in Alaska. Where would you envision the center 
being established?
    Mr. Kaplan. Based in Fairbanks at the University of Alaska 
Fairbanks, related to the Alaska Native Language Center. We 
would be the demonstration center, and from there we would 
coordinate efforts to provide training to groups in the rest of 
the country and have them travel to Fairbanks for----
    Senator Inouye. Not to cause any problem, but is Fairbanks 
better than Anchorage?
    Mr. Kaplan. Oh, that is just where the Alaska Native 
Language Center is located.
    Senator Inouye. Oh, oh.
    Mr. Kaplan. It is better than Anchorage, but that is not 
the reason.
    Senator Inouye. You should not have said that.
    Mr. Kaplan. Now it is on the record.
    Senator Inouye. Dr. Hermes, you have had some personal 
experience in this with two of your children in school.
    Ms. Hermes. That is right.
    Senator Inouye. Now, as a mother, have you seen 
improvement?
    Ms. Hermes. Improvement? I have seen an awareness and a 
consciousness and a love of the language that blossom in both 
of them. They knew I was coming out here, and I have had a lot 
of traveling this spring, and they hate it when I go. They are 
seven and nine. They said, mom, you do whatever you have to for 
our language. And they will stick with school. They love school 
because of the language.
    Senator Inouye. Does it provide better cultural identity 
and self-pride?
    Ms. Hermes. I believe it does because they are able to 
think and create in the language; they are not just carrying 
out activities. You know, we do all the traditional activities. 
They are not just doing the activities, but they can do 
anything. They can go to St. Louis, they can study anything and 
think about it in the language.
    Senator Inouye. Obviously I am not a scientist, I am a 
politician, but does this language immersion program do 
something to exercise the brain cells?
    Ms. Hermes. There is research, brain research that shows 
that there is cognitive benefits. I used the term and Bill used 
it before, metacognitive gains. So when a young child up to, I 
think, the age of four or five, they have four lobes of their 
brain devoted to learning language. They are like a sponge for 
language. So to engage them in different languages, in more 
than one language, creates connections in their brains that 
will be there for life, that are not there if they are only in 
a monolingual environment.
    Senator Inouye. Well, I can assure the panel that we are 
going to do everything to report this measure out of the 
committee before the end of July. I thank you all very much.
    Believe it or not, this is our last panel. Our last panel, 
the Director of the Bishop Museum of Honolulu, Dr. William Y. 
Brown, accompanied by the Director of Program Planning and 
Development, Ms. Jennifer Chock; Dr. David Dinwoodie, 
Department of Anthropology, University of New Mexico in 
Albuquerque; the Director of National Indian Education 
Association of Alexandria, Mr. John Cheek, accompanied by Ms. 
Cindy La Maar, President-Elect, National Indian Education 
Association.
    I expect all of you to wrap it up nicely now.
    May I call upon Distinguished Director of the Bishop 
Museum, Dr. Brown.

    STATEMENT OF WILLIAM Y. BROWN, DIRECTOR, BISHOP MUSEUM, 
   HONOLULU, HI, ACCOMPANIED BY JENNIFER CHOCK, DIRECTOR OF 
               PROGRAM PLANNING AND DEVELOPMENT.

    Mr. Brown. Thank you, Mr. Chairman. And I understand your 
message. And accompanying me, as was noted, is Jenny Chock.
    I would like to thank you and Senator Akaka for sponsoring 
this bill. We appreciate the chance to be here and we fully 
support the bill and look forward to its passage.
    As you know, the Bishop Museum is now 114 years old, 
established in the memory of Princess Pauahi Bishop by her 
husband to honor her and to be the house of the treasures of 
the Kamehameha family, and we have over 2 million cultural 
objects and then many other things that the Senator is familiar 
with, some with six legs. Over 400,000 people come to the 
Bishop Museum annually, and over the last 3 years we have had 
various organizations, the Council for Native Hawaiian 
Advancement, the Alaska Native Heritage Center, the Peabody 
Essex Museum, the Inupiat Heritage Center, New Bedford Whaling 
Museum, for all of which we have programs for cooperation and 
joint cultural development.
    You know, Mr. Chairman, if I may, I know time is short. I 
don't think I really need to read the rest of the details of my 
testimony.
    Senator Inouye. Before you proceed, may I assure all 
witnesses that your full text of your prepared statement will 
be made part of the record.
    Mr. Brown. Let me just, then, summarize relatively brief 
remarks.
    We have an enormous collection of documents and tape 
recordings and photographs, hundreds of thousands of them that 
represent much, maybe most, of what is left that is documented 
of the language of old Hawai'i, and we have individuals like 
Pat Namaka Bacon, she is my Namaka, who began work at the 
Bishop Museum in 1939 and works there today, and spends 
everyday listening to tapes, many 50 years old, that were 
recorded of Hawaiians, and transcribes them in Hawaiian. So we 
have this enormous capability and commitment in the Bishop 
Museum to keeping that language intact.
    We have another program that we are investing in to scan 
the old 19th century Hawaiian newspapers. You know, it turns 
out there were just a few sources, Malo, Kamakau, John Papa Ii, 
a few others, but very few, who lived before the Kapu system 
fell in 1819 that are published now. Those newspapers have 
words of many people that no one has ever read since probably 
the day they were published--words of people that lived before 
the kapu system fell--people that have that old knowledge.
    And then we are very interested in trying to make sure that 
we keep all of the nuances alive, the different dialects. So 
for the Bishop Museum, this enterprise of language preservation 
is central to our purpose, and we thank you for moving forward 
with this legislation to help on that.
    [Prepared statement of Mr. Brown appears in appendix.]
    Senator Inouye. I think this might be an appropriate time 
to bring this up. Several months ago Senator Stevens of Alaska 
and I were discussing some of the employment problems in the 
reservations and among native peoples of the United States. He 
is the chairman, I am the vice chairman of the Defense 
Appropriations Committee, and we noted that there are tons of 
operational manuals used by the U.S. Army, the Navy, et cetera, 
and we are running out of space. There is a manual for tires, 
there is a manual for gas tanks, there is a manual for rifles, 
and so we decided that they should be digitized. And the 
program has started with the U.S. Army and it is now being 
established in several Indian reservations, and in Anahola 
Kavai, the Hawaiian homesteaders of Anahola Kavai have just set 
up a center for digitizing. And I know that in Alaska and in 
many other places there is great potential and capacity to 
conduct digitization work.
    I suppose you would not mind if we have Indian country and 
Alaskan natives and Hawaiian natives participate in digitizing 
your documents? Any opposition to that?
    Mr. Brown. No, Mr. Chairman.
    Senator Inouye. You are for it, Dr. Hermes?
    Ms. Hermes. Yes.
    Senator Inouye. Well, with your smile, I cannot say no.
    So I thought the Bishop Museum might be a logical place in 
Polynesia for that purpose.
    Mr. Brown. Well, thank you, Mr. Chairman.
    Senator Inouye. You must have tons of things to be 
digitized.
    Mr. Brown. We have literally tons of things that need to be 
digitalized. And I think you have touched on what may be the 
top priority for museums now, because, when you think about it, 
what is a higher purpose than to protect and provide access to 
that history? And the only way to provide access effectively to 
the public now is to digitalize it and put it on the Internet. 
And I would add that, you know, all of the great institutions 
of the world that date back many centuries have at some point 
been destroyed. And I hope this never happens to the Bishop 
Museum, but it happened to the Library of Alexandria, it 
happened to the Library at Pergamon. So we need to do two 
things: Protect what we have, but try to make sure that that 
information is out there in another way for all the world to 
have, we hope, forever.
    Senator Inouye. You have just given the marching orders to 
Dr. Zell here. Right?
    Ms. Chock, do you have anything to add to us?
    Ms. Chock used to be on my staff.
    Ms. Chock. Thank you very much, Senator. It is a tremendous 
honor to be on the other side of the table. And I just want to 
thank you because you have been such a crusader on behalf of 
not only Native Hawaiians, but for native people generally. And 
you just have this ability, I am sure partly because of your 
great staff, to understand all the different ways that 
language, culture is all interconnected to how we understand 
ourselves. And that kind of guidance, that kind of leadership 
has just been tremendous, and we cannot begin to thank you 
enough for your continued support for this. And anything that 
we can do at the Bishop Museum to help with the passage of this 
bill, please do not hesitate to call upon us.
    Thank you.
    Senator Inouye. See, if you were on my staff, you would get 
a pay raise.
    Dr. Brown, you heard that, did you not?
    Mr. Brown. Yes, sir.
    Senator Inouye. And now may I call upon Dr. David Dinwoodie 
of the Department of Anthropology, University of New Mexico.
    Doctor.

   STATEMENT OF DAVID DINWOODIE, DEPARTMENT OF ANTHROPOLOGY, 
           UNIVERSITY OF NEW MEXICO, ALBUQUERQUE, NM

    Mr. Dinwoodie. Greetings. It is a distinct honor to have 
the opportunity to testify and contribute to this discussion.
    My professional interest is in language use among Native 
Americans and First Nations people of Canada. Presently, I am 
participating in an effort initiated by the leadership of the 
Nizipuhwahsin school and Piegan Institute to begin a second 
phase in their work, and it is a distinct pleasure to be 
involved in that work. And it is on the basis of that work and 
my previous experience that I have been asked to testify.
    In summarizing my testimony, it is my experience that what 
Dr. Sims earlier described as community-based efforts are 
underway in virtually all Native American communities, that is, 
community-based efforts to support indigenous languages and 
also to address the linguistic situation more generally. There 
are efforts to increase proficiency in English, and in many 
cases those are compatible, very much compatible with efforts 
to preserve indigenous languages.
    And it is my belief that these movements should be taken 
very seriously. The leaders of these movements, some of which 
are very small and consist of families, are in the best 
position to resolve some of the difficulties in supporting 
these languages, and we heard a little bit about that in the 
last panel. It is my belief that anthropologists in particular 
are not able to sort out those difficulties. In other words, we 
are in a position to learn from what is going on in these 
communities, but the people, the community members themselves 
are in the best position to organize and implement these 
programs. And I think that the Piegan Institute serves as a 
model. In my view, it is exactly the way it presents itself, it 
is a grassroots movement and should be taken very seriously.
    That is the gist of what I have to contribute.
    [Prepared statement of Mr. Dinwoodie appears in appendix.]
    Senator Inouye. What you are saying has been said in 
different ways by other witnesses, that in order to succeed, an 
important factor is community involvement or support. Now, how 
do we achieve that? How would you suggest? What do we do?
    Mr. Dinwoodie. Well, I think the simplest way in the case 
that I know best here, which is the Piegan Institute, is to 
support the leaders of that institution. In other words, they 
have already addressed many of these extraordinarily complex 
issues, and they are in a position to really proceed and do 
great things. And I think that is true of the other programs, 
it is just that I am not an expert in the other programs. But I 
think the key is to move beyond generic participation toward 
leadership and support that puts them in a position to 
implement these programs.
    Senator Inouye. I will let you in on a little secret here. 
This Committee was all prepared to report this bill out 
immediately, because we believe in this measure; however, we 
felt that our Nation should be made aware of why we are doing 
this, that native language immersion and instruction conducted 
in native languages do cut down on dropout rates, it does 
involve improvement and performance, scholastic performance, 
all the things that we have been seeking. It somehow instills 
better discipline among the students; it brings about better 
cultural identity and pride. And so that is why we are having 
this hearing. And I am glad that all of you have assisted us in 
this.
    And now may I have the wrap-up witness, Dr. Cheek.

 STATEMENT OF JOHN CHEEK, DIRECTOR, NATIONAL INDIAN EDUCATION 
                  ASSOCIATION, ALEXANDRIA, VA

    Mr. Cheek. Good afternoon, Mr. Senator. It is good to be 
here.
    Again, my name is John Cheek. I am executive director of 
the National Indian Education Association. Our president-elect, 
Cindy La Maar, had to catch a flight, so I am just going solo 
on this part of it. I think it is very appropriate that you 
saved the longest testimony for the end of the hearing today, 
so I appreciate that.
    During various periods in the history of this country, 
there have been efforts to eliminate native languages. Rarely 
has the use of these languages been supported or even 
encouraged by the Federal Government. Since native languages 
are closely related to the cultural identity of tribal groups 
that speak them, the failure to support retention of these 
languages also means a lack of support for the cultural 
identity of numerous indigenous populations. The ill-conceived 
efforts to eliminate the language and culture of all of 
America's indigenous populations is one of the darkest periods 
in this Nation's history.
    Native languages are one of the treasures of this country's 
heritage, as well as the treasures of tribal groups themselves. 
During World War II, several Indian nations utilized their 
native language to help America win the war. Even as World War 
II came to an end, Indian languages here at home were under 
attack in the Indian schools as termination advocates sought to 
remove language and culture from Indian students. Recently, 
proponents of the English-only movement have sought to 
mainstream the English language in America, even though today's 
minorities will become tomorrow's majority.
    To American Indians, Alaska Natives, and Native Hawaiians, 
our languages are synonymous with cultural identity. Without 
language, there is no effective way to communicate and pass on 
the values and teachings from one generation to the next. 
Sadly, many tribal groups have already lost their languages. In 
1992, when the Native Languages Act was first considered by 
Congress, only 150 Indian languages were still being used, out 
of an estimated several hundred.
    Today I am speaking on behalf of the advocates of the 
survival school movement and amendments to the Native American 
Languages Act. The amendments would include the addition of 
survival schools, and I won't really go into that since we have 
had adequate testimony on that and it is in my record. But, in 
short, S. 575 is a modest step in the process of supporting the 
revitalization of native languages in America. It would put 
existing language immersion programs on firmer financial 
footing and provide some encouragement for others to begin. It 
plans a seed that hopefully can grow into a larger effort to 
slow down and perhaps, in some cases, reverse the march toward 
the loss of the American Indian language and culture. 
Specifically, the bill would support the development of 
survival schools and language nests, which NIA fully supports 
and endorses.
    We did have a couple of comments that we wanted to at least 
bring to your attention, and I won't read them all, but they 
are in my written statement.
    The certification issue definitely needs to be dealt with. 
One of the problems is that the No Child Left Behind Act is 
totally achievement driven and doesn't really consider any 
other language validity, I think, and reliability, so we need 
to make sure that somehow whatever language programs are 
created and the money that is there for them also includes some 
way to certify those programs so that they at least will 
maintain some sort of status under No Child Left Behind.
    The act also didn't recommend an authorization amount, even 
though I believe the previous survival school bill that didn't 
make it through recommended about $8 million, I believe. I 
think our recommendation is to provide about $8 million for 
existing programs and to create new programs in order to keep 
the momentum going that we have seen here today.
    I would also want to include an additional $1 million for 
research to back up what we know is happening in these local 
schools and in these survival schools. Without research, you 
can't really back up and support the work that is going on that 
is actually working for Indian communities, so we need to have 
that in with it.
    I believe there is one provision that it looked like they 
had omitted Alaska Natives, it was under section 103. So if it 
needed a technical amendment or not, I would make sure that 
Alaska Natives are included in that section.
    The rest of my comments I will just include in my record.
    In closing, I would like to thank the Committee on Indian 
Affairs for its unwavering support for the concerns of all 
native people and for holding today's hearing on S. 575. Tribal 
languages, as with tribal sovereignty, can only be maintained 
when committed native peoples work in concert with the Congress 
to ensure their existence. To this end, we ask the committee to 
recommend support for this legislation and its potential impact 
on the future of Indian generations.
    I would be happy to answer any questions the committee may 
have.
    [Prepared statement of Mr. Cheek appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Cheek.
    I am very pleased that we did have this hearing for another 
reason, a very important one, because many witnesses suggested 
that this measure, like most legislative measures, has some 
imperfections and that we should amend it to address the 
problems associated with the provisions of the No Child Left 
Behind Act, for example. And, therefore, may I suggest that all 
of you who have interest in suggesting amendments to this bill 
assemble in room 836 of the Hart Office Building, which is two 
buildings down. That is one of the offices of the Committee on 
Indian Affairs. So if you will meet with the staff of the 
committee and discuss the changes that you would like to 
suggest to the bill, amendments to the bill, I would personally 
appreciate that.
    So, with that, I thank all of you and I thank Dr. Navarro 
for the books. Thank you very much. And Dr. Hinton.
    One of these days I am going to learn the language. I do 
speak Navajo.
    So, with that, thank you all very much. It has been very 
helpful. And I can assure you that this measure will be 
reported out with your changes by the end of July. Thank you 
very much.
    [Whereupon, at 3:25 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii, 
                 Chairman, Committee on Indian Affairs

    The Senate Committee on Indian Affairs meets this morning to 
receive testimony on S. 575, a bill to amend the Native American 
Languages Act to provide authority for the establishment of Native 
American Language Survival Schools and Native American Language Nests 
and for other purposes.
    Historians and linguists estimate that there were between 1,000 and 
2,000 distinct Native languages at the time that Europeans first set 
foot on this continent.
    Since that time, there have been many influences brought to bear on 
Native people and their cultures, and few of them have been positive as 
they affect the preservation and ongoing vitality of Native languages 
For instance, there was a time in our history when Federal policy 
strongly encouraged the assimilation of Indian people. In carrying out 
this policy, Indian children were taken from their homes and forced to 
attend boarding schools, where against most Native religious beliefs, 
the children's hair was cut, and they were forbidden from speaking in 
their Native languages, or practicing any aspect of their traditions 
and culture, including dancing, singing, and ceremonial rites.
    In contemporary times, we have seen the effects of the ``English-
only'' movement on the speaking of other languages in this country--and 
on school curricula which at one time placed a premium on the learning 
of other languages by American students.
    In my home State of Hawaii, fortunately we have a different set of 
circumstances.
    The Native Hawaiian language is recognized as one of two official 
languages of the State.
    Native Hawaiian language immersion programs are part of the public 
school curriculum, and private schools using the Native Hawaiian 
language as the exclusive language in which instruction in all academic 
subjects is carried out have more applicants than they can accommodate.
    In Hawaii, we have not only kindergarten through twelfth grade 
Native Hawaiian language instructed curriculum in the private schools 
administered by Aha Punana Leo, we have a masters' degree program at 
the University of Hawaii at Hilo where teachers are trained to provide 
instruction in the Native Hawaiian language.
    Many of our streets bear the names of Native Hawaiian leaders or 
are simply Native Hawaiian words, and ancient and traditional 
practices, such as hula, ho'o'ponopono, and lomi lomi are not only 
widely accepted but enthusiastically embraced.
    Native Hawaiian traditional healers play an integral role in the 
provision of health care to Native Hawaiian patients.
    So in Hawaii, while there was a time when the influence of the 
missionaries and their efforts to discourage the Native Hawaiian people 
from expressing their culture and their traditions and from speaking 
their language, we are no longer fighting those influences.
    But there is a new threat to Native languages and I don't suppose 
that any of our well-intentioned legislators would have predicted 
this--but the requirements of the No Child Left Behind Act are having a 
significant effect on the inclusion of Native languages in school 
curricula, on teacher certification, and in many other areas that we 
will hear about today.
    Some have suggested that the only solution is to take Native 
languages out of the public schools and to provide Native language 
instruction in another venue.
    There are a number of programs already operating in this manner, 
and they have demonstrated that students can not only become proficient 
in their Native language, but that their academic performance is 
improved.
    Other scientific tests of human brain development instruct us that 
when children become proficient in more than one language, they 
actually generate more brain cells and their life-long capacity for 
learning is enhanced.
    But we also know that there are only about 155 Native languages 
remaining and that 87 percent of these languages have been classified 
as either deteriorating or nearing extinction.
    Native languages are losing their vitality as those who speak the 
Native language pass on, and with the loss of language comes the loss 
of the means to convey the history, the culture, the traditions that 
are unique to each group of people.
    We are speaking of the very survival of Native languages, and we 
must do our part to assure that they do survive.
    (We are told that Senator Murkowski will be at the hearing--so you 
may want to call on her next).
    Before we begin the hearing today, I want to advise the witnesses 
that your full statements will be made part of the hearing record, and 
the committee would appreciate it if you would summarize your thoughts 
so that there will be sufficient time for all of the presentations.
    Because of other meetings that will be taking place in the Senate, 
we have to complete this hearing before noon today, so I would ask all 
of the witnesses if they will please respect the Committee's desire 
that all witnesses have time to make their presentations before the 
hearing must be adjourned, by keeping their statements within the 5-
minute timeframe that has been designated. Thank you.

                                 ______
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska

    Mr. Chairman. The preservation of our Native languages was very 
important to my father, former Senator Frank Murkowski, who joined with 
Senator Inouye and others in this room to craft the early Native 
American language legislation in the early 1990's.
    Senator Frank Murkowski was particularly supportive of the work of 
Dr. Michael Krauss and his colleagues at the Alaska Native Language 
Center at the University of Alaska Fairbanks. He would be very pleased 
to know that S. 575 designates the center as a demonstration site, in 
recognition of its pioneering work in language preservation, as I am.
    But the challenges facing those who educate in Native languages are 
perhaps greater today than they ever have been. Although the United 
States has long abandoned the practice of terminating Native languages 
by discouraging educators from teaching in any language other than 
English, the recent ``No Child Left Behind'' legislation poses 
particular challenges to the advancement of Native language education. 
The written testimony submitted today suggests that these challenges 
will be felt throughout Indian America.
    For months, school districts throughout rural Alaska have been 
working with the Department of Education in hopes of finding some 
flexibility to assure that ``No Child Left Behind'' does not undo all 
of the good work that the Native language survival community has done 
for more than one-quarter century. I need to point out that while the 
Native American Languages Act dates back to the early 1990's, the 
Alaska Native Language Center was established by state legislation in 
1972.
    I was proud to host Education Secretary Rod Paige's recent visit to 
Alaska, so that he and his senior staff could have a first hand view of 
all the good learning that is occurring in our rural school districts 
and why the implementation of ``No Child Left Behind'' must be 
accommodated to our special circumstances.
    While we opened the Secretary's eyes to how education works in 
rural Alaska, there is much left to be done in reconciling Native 
language education with ``No Child Left Behind.'' Mr. Chairman, you 
have brought together many of the brightest minds in Native language 
survival for this hearing. I will be most interested in hearing how we 
can continue our progress in Native language education, without 
compromising the essential objective of ``No Child Left Behind,'' which 
is that every child must be educated in away that he or she can 
effectively participate in the American economy. I would like our 
witnesses, and their colleagues, to carefully consider how their 
talents can be brought to bear in resolving this dilemma.
    I am encouraged by the written testimony which indicates that 
intensive education in Native languages does not inhibit educational 
achievement, but enhances it, and I would ask the witnesses to help us 
fully understand this point during the course of this hearing or in the 
supplemental information they might submit for the record. Thank you, 
Mr. Chairman, for convening this important hearing. It could not have 
come at a more critical time.

                                 ______
Prepared Statement of Joycelyn Davis-DesRosier, Teacher, Nizipuhwahsin, 
  School, Piegan Institute Blackfeet Indian Reservation, Browning, MT

    Thank you for the opportunity to testify on behalf of S. 575, the 
``Native American Languages Act Amendments Act of 2003.'' Today I would 
like to tell you how important Native American language survival 
schools are for educating our Native children.
    Three years ago my son Ahsinapoyii (Jesse DesRosier), along with 
Darrell Kipp the Executive Director of Piegan Institute and fellow 
student Terrance Guardipee came to testified on behalf of this bill. 
(Here is their picture with Senator Inouye) I am here today on behalf 
of my son and on behalf of all the children at Nizipuhwahsin to tell 
you how important Native American language survival schools are at 
developing fluent speakers, returning status to Native languages and at 
educating our children. Nizipuhwahsin is a K-8 school on the Blackfeet 
Indian reservation where core academic subjects are taught in the 
Blackfeet language.
    When I first enrolled my two boys at Nizipuhwahsin a lot of people 
told me not to send them there, even my own family. They said that my 
boys would never learn to read and write English, that my boys would 
have lower academic achievement and would never make the transition to 
public school and that the Blackfeet language the children were 
learning was ``incorrect.'' At times even I began to question, am I 
making the right decision for my children?
    I was born and raised on the Blackfeet reservation and I have lived 
here all of my life. Growing up the Blackfeet language was spoken in 
our house but we were never encouraged to speak the language. As I grew 
up I took classes in high school and I took all the Blackfeet language 
classes at the community college but I never learned more than one word 
a week. It was not until my sons started school at Nizipuhwahsin that 
my family returned to speaking the Blackfeet language.
    I began volunteering at Nizipuhwahsin 5 years ago and then entered 
a 3-year Kellogg Foundation funded Blackfeet language teacher training 
program at Piegan Institute. I completed the 3-year program and a B.A. 
in Elementary Education. I became a state certified teacher and for the 
past year I have worked full-time as a teacher at Nizipuhwahsin.
    As a teacher I see the value of Native American language survival 
schools not only for my children but for all the children and for the 
community as a whole. When children begin to learn the language the 
first thing they do is to go visit their grandparents--and speak to 
them in Blackfeet. The children visit with each other at the grocery 
store and people in the community listen. What was once thought of as 
taboo or old fashioned has become a symbol of high status. Elders seek 
out children from Nizipuhwahsin to visit with because they know they 
can have a conversation with each other. It is bringing about a healing 
between the generations.
    Unlike educators and academics the elders do not argue about 
whether or not the children speak the ``correct'' type of Blackfeet. 
The elders acknowledge the children's abilities. The elders reflect on 
their experiences, mostly when they were young and with their parents. 
The elders share the socializing of long visits, singing, and dancing. 
The Blackfeet language is the bond because everyone spoke only the 
language in the old days. Elders today face and experience the most 
change of any generation of people. The fast pace of living has caught 
up to the Blackfeet and the elders are worried about it. The 
spirituality in the families and community used to be strong.
    Nizipuhwahsin has an open door policy and elders are welcome at all 
times of the day. When Nizipuhwahsin school was first designed and 
built, it was built with a grandmother's house in mind. The classrooms 
were designed to be open, airy and welcoming. The kitchen is always 
open for the children and visitors. Our school is accessible to all the 
community. Our school has evolved from being not only a school but the 
center of community life. Many community cultural events are held at 
the Nizipuhwahsin because it is made comfortable and people want to 
hear and speak the language.
    But most of all I am happy for the children who are thriving in a 
safe, nurturing environment and learning their language. Many children 
who go to Nizipuhwahsin have gone on to public school and they move 
directly into taking honors classes in high school, becoming members of 
the National Honor Society and scoring above average on the ITBS. 
Learning academic subjects in the Blackfeet language has not diminished 
their academic ability but enhanced it.
    Pitohkiiyo (Michael John DesRosier) is now completing his 6th year 
and Ahsinapoyii (Jesse DesRosier) is completing his 4th year at 
Nizipuhwahsin and they are speakers of the Blackfeet language. Elders 
now come to my sons and ask them to lead prayers at our religious 
ceremonies. The elders hold this knowledge sacred. This knowledge can 
only be obtained through the Blackfoot language. Ceremonial rites and 
rituals have been handed down by Creator since the beginning of time 
and must continue to remain so. The time is coming when many ceremonial 
rites need to be transferred to younger people. Therefore, the need for 
reviving the teachings through the Blackfoot language is urgent. 
Ceremonies must continue on to provide protection to the people. My 
sons are beginning to participate in the ancient ceremonial ways of our 
people. My sons now have opportunities that they never would have had 
without our Native American language survival school.
    Did I make the right decision? Yes, our lives have been forever 
changed by Nizipuhwahsin.

[GRAPHIC] [TIFF OMITTED] T7260.001

[GRAPHIC] [TIFF OMITTED] T7260.002

[GRAPHIC] [TIFF OMITTED] T7260.003

[GRAPHIC] [TIFF OMITTED] T7260.004

[GRAPHIC] [TIFF OMITTED] T7260.005

[GRAPHIC] [TIFF OMITTED] T7260.006

[GRAPHIC] [TIFF OMITTED] T7260.007

[GRAPHIC] [TIFF OMITTED] T7260.008

[GRAPHIC] [TIFF OMITTED] T7260.009

[GRAPHIC] [TIFF OMITTED] T7260.010

[GRAPHIC] [TIFF OMITTED] T7260.011

[GRAPHIC] [TIFF OMITTED] T7260.012

[GRAPHIC] [TIFF OMITTED] T7260.013

[GRAPHIC] [TIFF OMITTED] T7260.014

[GRAPHIC] [TIFF OMITTED] T7260.015

[GRAPHIC] [TIFF OMITTED] T7260.016

[GRAPHIC] [TIFF OMITTED] T7260.017

[GRAPHIC] [TIFF OMITTED] T7260.018

[GRAPHIC] [TIFF OMITTED] T7260.019

[GRAPHIC] [TIFF OMITTED] T7260.020

[GRAPHIC] [TIFF OMITTED] T7260.021

[GRAPHIC] [TIFF OMITTED] T7260.022

[GRAPHIC] [TIFF OMITTED] T7260.023

[GRAPHIC] [TIFF OMITTED] T7260.024

[GRAPHIC] [TIFF OMITTED] T7260.025

[GRAPHIC] [TIFF OMITTED] T7260.026

[GRAPHIC] [TIFF OMITTED] T7260.027

[GRAPHIC] [TIFF OMITTED] T7260.028

[GRAPHIC] [TIFF OMITTED] T7260.029

[GRAPHIC] [TIFF OMITTED] T7260.030

[GRAPHIC] [TIFF OMITTED] T7260.031

[GRAPHIC] [TIFF OMITTED] T7260.032

[GRAPHIC] [TIFF OMITTED] T7260.033

[GRAPHIC] [TIFF OMITTED] T7260.034

[GRAPHIC] [TIFF OMITTED] T7260.035

[GRAPHIC] [TIFF OMITTED] T7260.036

[GRAPHIC] [TIFF OMITTED] T7260.037

[GRAPHIC] [TIFF OMITTED] T7260.038

[GRAPHIC] [TIFF OMITTED] T7260.039

[GRAPHIC] [TIFF OMITTED] T7260.040

[GRAPHIC] [TIFF OMITTED] T7260.041

[GRAPHIC] [TIFF OMITTED] T7260.042

[GRAPHIC] [TIFF OMITTED] T7260.043

[GRAPHIC] [TIFF OMITTED] T7260.044

[GRAPHIC] [TIFF OMITTED] T7260.045

[GRAPHIC] [TIFF OMITTED] T7260.046

[GRAPHIC] [TIFF OMITTED] T7260.047

[GRAPHIC] [TIFF OMITTED] T7260.048

[GRAPHIC] [TIFF OMITTED] T7260.049

[GRAPHIC] [TIFF OMITTED] T7260.050

[GRAPHIC] [TIFF OMITTED] T7260.051

[GRAPHIC] [TIFF OMITTED] T7260.052

[GRAPHIC] [TIFF OMITTED] T7260.053

[GRAPHIC] [TIFF OMITTED] T7260.054

[GRAPHIC] [TIFF OMITTED] T7260.055

[GRAPHIC] [TIFF OMITTED] T7260.056

[GRAPHIC] [TIFF OMITTED] T7260.057

[GRAPHIC] [TIFF OMITTED] T7260.058

[GRAPHIC] [TIFF OMITTED] T7260.059

[GRAPHIC] [TIFF OMITTED] T7260.060

[GRAPHIC] [TIFF OMITTED] T7260.061

[GRAPHIC] [TIFF OMITTED] T7260.062

[GRAPHIC] [TIFF OMITTED] T7260.063

[GRAPHIC] [TIFF OMITTED] T7260.064

[GRAPHIC] [TIFF OMITTED] T7260.065

[GRAPHIC] [TIFF OMITTED] T7260.066

[GRAPHIC] [TIFF OMITTED] T7260.067

[GRAPHIC] [TIFF OMITTED] T7260.068

[GRAPHIC] [TIFF OMITTED] T7260.069

[GRAPHIC] [TIFF OMITTED] T7260.070

[GRAPHIC] [TIFF OMITTED] T7260.071

[GRAPHIC] [TIFF OMITTED] T7260.072

[GRAPHIC] [TIFF OMITTED] T7260.073

[GRAPHIC] [TIFF OMITTED] T7260.074

[GRAPHIC] [TIFF OMITTED] T7260.075

[GRAPHIC] [TIFF OMITTED] T7260.076

[GRAPHIC] [TIFF OMITTED] T7260.077

[GRAPHIC] [TIFF OMITTED] T7260.078

[GRAPHIC] [TIFF OMITTED] T7260.079

[GRAPHIC] [TIFF OMITTED] T7260.080

[GRAPHIC] [TIFF OMITTED] T7260.081

[GRAPHIC] [TIFF OMITTED] T7260.082

[GRAPHIC] [TIFF OMITTED] T7260.083

[GRAPHIC] [TIFF OMITTED] T7260.084

[GRAPHIC] [TIFF OMITTED] T7260.085

[GRAPHIC] [TIFF OMITTED] T7260.086

[GRAPHIC] [TIFF OMITTED] T7260.087

[GRAPHIC] [TIFF OMITTED] T7260.088

[GRAPHIC] [TIFF OMITTED] T7260.089

[GRAPHIC] [TIFF OMITTED] T7260.090

[GRAPHIC] [TIFF OMITTED] T7260.091

[GRAPHIC] [TIFF OMITTED] T7260.092

[GRAPHIC] [TIFF OMITTED] T7260.093

[GRAPHIC] [TIFF OMITTED] T7260.094

[GRAPHIC] [TIFF OMITTED] T7260.095

[GRAPHIC] [TIFF OMITTED] T7260.096

[GRAPHIC] [TIFF OMITTED] T7260.097

[GRAPHIC] [TIFF OMITTED] T7260.098

[GRAPHIC] [TIFF OMITTED] T7260.099

[GRAPHIC] [TIFF OMITTED] T7260.100

[GRAPHIC] [TIFF OMITTED] T7260.101


</pre></body></html>
